<html>
<title> - FIRST RESPONDERS; HOW STATES, LOCALITIES AND THE FEDERAL GOVERNMENT ARE WORKING TOGETHER TO MAKE AMERICA SAFER</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



FIRST RESPONDERS; HOW STATES, LOCALITIES AND THE FEDERAL GOVERNMENT ARE 
                 WORKING TOGETHER TO MAKE AMERICA SAFER

=======================================================================

                                HEARING

                               before the

                          SELECT COMMITTEE ON
                           HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 2003

                               __________

                           SERIAL NO. 108-17

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
96-816                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012004


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Charles Gonzalez, Texas
Jim Gibbons, Nevada                  Ken Lucas, Kentucky
Kay Granger, Texas                   James R. Langevin, Rhode Island
Pete Sessions, Texas                 Kendrick B. Meek, Florida
John E. Sweeney, New York

                      John Gannon, Chief of Staff

         Uttam Dhillon, Chief Counsel and Deputy Staff Director

              David H. Schanzer, Democrat Staff Director)

                    Michael S. Twinchek, Chief Clerk

                                  (II)




                            C O N T E N T S

                               __________
                                                                   Page

                               STATEMENTS

  The Honorable Christopher Cox, Chairman, Select Committee on 
    Homeland Security............................................     1
  The Honorable Lincoln Diaz-Balart, a Representative in Congress 
    From the State of Florida....................................    15
  The Honorable Jennifer Dunn, a Representative in Congress From 
    the State of Washington......................................     7
  The Honorable Bob Etheridge, a Representative in Congress From 
    the State of North Carolina
    Oral Statement...............................................    14
    Prepared Statement...........................................    15
  The Honorable Barney Frank, a Representative in Congress From 
    the State of Massachusetts...................................    11
  The Honorable James R. Langevin, a Representative in Congress 
    From the State of Rhode Island...............................    15
  The Honorable Sheila Jackson-Lee, a Representative in Congress 
    From the State of Texas
    Prepared Statement...........................................    13
  The Honorable Nita M. Lowey, a Representative in Congress From 
    the State of New York........................................    11
  The Honorable Edward J. Markey, a Representative in Congress 
    From the State of Massachusetts..............................    11
  The Honorable Bill Pascrell, Jr., a Representative in Congress 
    From the State of New Jersey.................................    51
  The Honorable Loretta Sanchez a Representative in Congress From 
    the State of California......................................     9
  The Honorable Bennie G. Thompson, a Representative in Congress 
    From the State of Mississippi................................     8
  The Honorable Jim Turner, a Representative in Congress From the 
    State of Texas...............................................    26
  The Honorable Curt Weldon, a Representative in Congress From 
    the State of Pennsylvania....................................    28

                               WITNESSES

  The Honorable Mitt Romney, Governor, Commonwealth of 
    Massachusetts
    Oral Statement...............................................    16
    Prepared Statement...........................................    18
  Mr. Michael Grossman, Captain, Los Angeles County Sheriff's 
    Department
    Oral Statement...............................................    43
    Prepared Statement...........................................    45
  Mr. George Jaramillo, Assistant Sheriff, Orange County, 
    California Sheriff's Department
    Oral Statement...............................................    39
    Prepared Statement...........................................    40
  Mr. Ray Kiernan, Fire Commissioner and Chief of New Rochelle 
    Fire Department and Member of Westchester Career Fire Chiefs 
    and Northeast Fire Consortium, New Rochelle Fire Department, 
    New Rochelle, New York.......................................    47
  Mr. Jamie Metzl, Senior Fellow and Coordinator for Homeland 
    Security Programs, Council on Foreign Relations
    Oral Statement...............................................    33
    Prepared Statement...........................................    36

                                 (III)


                   MATERIALS SUBMITTED FOR THE RECORD

  Questions and Reponses for the Record..........................    54
  Prepared Statement of the Honorable Dick Murphy, Mayor, San 
    Diego, California............................................    58
  Letters Submitted for the Record...............................    60

                                  (IV)

 
FIRST RESPONDERS; HOW STATES, LOCALITIES AND THE FEDERAL GOVERNMENT ARE 
                 WORKING TOGETHER TO MAKE AMERICA SAFER

                              ----------                              


                        Thursday, July 17, 2003

                          House of Representatives,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 1:02 p.m., in Room 
2318, Rayburn House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Dunn, Smith, Weldon, Camp, 
Diaz-Balart, Linder, Shadegg, Souder, Sweeney, Turner, 
Thompson, Sanchez, Markey, Frank, Slaughter, DeFazio, Lowey, 
Norton, McCarthy, Jackson Lee, Pascrell, Christensen, 
Etheridge, Lucas of Kentucky and Langevin.
    Chairman Cox. [Presiding.] Good afternoon. A quorum being 
present the Select Committee on Homeland Security will come to 
order. The committee is meeting today to hear testimony on how 
states, localities and the federal government are working 
together to make America safer.
    I would like to welcome the members in attendance this 
afternoon, advise members that we expect votes to come up on 
the floor as soon as 15 minutes from now. The first vote would 
likely be a 15-minute vote, so it is my hope that we can go 
through very brief opening statements and immediately to the 
testimony of our first witness, Governor Mitt Romney from the 
Commonwealth of Massachusetts.
    I would like to thank both distinguished panels of 
witnesses for appearing today. None of us will ever forget the 
images seared into our memories of those who gave their lives 
to rescue an estimated 15,000 men and women from the World 
Trade Center towers, or those who responded so quickly at the 
Pentagon on September 11.
    The events on that tragic day reminded all of us of the 
indispensable role of firefighters, police officers and 
emergency medical service personnel, a role that they fulfill 
every day.
    It forced all of us to rethink the way in which the federal 
government works with state and local communities to detect and 
prevent, but also to prepare to respond effectively to acts of 
terrorism.
    Since that tragic day in September, Congress has increased 
the funding for the estimated 2 million first responders by 
over $20 billion--1,400 percent increase since September 11.
    Unfortunately, however, this massive infusion of funding is 
not reaching our first responder community effectively. It is 
not getting there fast enough, and sometimes the money is not 
getting there at all.
    We are here today to find out how we can do better. Just 
last month, the committee visited California for hearings on 
port security at the ports of Los Angeles and Long Beach, and 
to meet with the first responder community in Los Angeles and 
Orange Counties.
    One of our witnesses there is also a witness here today, 
Assistant Sheriff Jaramillo, who was eloquent in discussing the 
broken pipeline funneling money from Washington to the states, 
and in offering suggestions on how to better coordinate federal 
grant programs.
    There was also some good news. We have heard encouraging 
testimony from the sheriff of Los Angeles County, Lee Baca, and 
the sheriff of Orange County, Mike Carona, about 
interjurisdictional information sharing between Orange and Los 
Angeles Counties, among them some 25 million people, and about 
the joint Orange/Los Angeles County Homeland Security Advisory 
Council, which meets regularly and brings federal, state and 
local government officials together with private sector 
representatives to develop a homeland security strategy for the 
region.
    They have, on their own initiative, made real progress, 
which we want to recognize and reward. Regional cooperation in 
funding decisions should be a top priority.
    Washington must also encourage the states to quickly and 
efficiently release federal grant moneys to the localities that 
are most at risk. Washington must do its part to fix the broken 
pipeline, which carries federal money to the states to enhance 
they statewide efforts.
    We, in Congress, must also do a better job of providing 
states and localities the information they need to allocate 
resources efficiently to those areas facing the greatest risk 
of attack.
    But perhaps the most important point is that these funds 
can no longer be distributed based on political formulas. In 
this and so many other areas of the homeland security mission, 
we need better intelligence to understand the terrorist threat.
    And we must get this information to the first responders, 
who require it to enhance our security. We must have better 
intelligence, and we must find ways to share it more broadly if 
we are to bound the terrorist threat, if we are to limit our 
vulnerabilities, and if we are to develop cost-effective 
solutions.
    Nearly two years after the attacks of September 11, grants 
are still being distributed to states using political formulas, 
formulas, in fact, that take no account of whether the 
recipient is, based on our best intelligence, at risk.
    Presently, the Office for Domestic Preparedness within the 
Department of Homeland Security distributes a baseline amount 
of 0.75 percent of the total amount appropriated to the grant 
program to every state, regardless of location, population, 
geographic size, number of critical assets or terrorist 
targets. This baseline amount is then followed by a 
distribution based merely on population. The formula has 
resulted in an astonishing distortion in funding for first 
responders.
    California, a state with seven times the population of 
Wyoming, receives just under $5 per person in first responder 
grants, while Wyoming receives over $35 per person. Even on a 
population formula alone, therefore, the system isn't working.
    Wyoming's largest city, Cheyenne, has a population of 
53,000, while California has 140 cities with populations equal 
to or above that number. A distribution system based on 
population alone creates such distortions. We need to apply 
some common sense and bring threat assessment into the 
equation.
    Congress has offered ODP virtually no guidance on the 
structure of first responder grants. The Homeland Security Act 
simply does not address this. We have provided no guidance on 
the methods of distribution or guidelines to recipients, 
unallowable uses of the funds. As a result, Congress is 
appropriating and the department is allocating billions of 
dollars to states with very little input from Congress on how 
these decisions should be made.
    This is not to say that Wyoming may not face the greatest 
risks of terrorism. We simply aren't using that kind of 
analysis in making these decisions. In fact, every state of the 
union faces plenty of risk and has many vulnerabilities. But 
the great disparity and the distribution of funds must be 
addressed on an objective basis so that states--all states and 
all people within the United States--are best prepared to face 
potential terrorist threats. We need to prioritize based on 
real risk of attack, real threats.
    Today the committee looks forward to hearing suggestions on 
how the grant formulas can be changed to integrate risk-based 
analysis into the formula, so that states facing the highest 
risk, localities facing the highest risk, and regions, whether 
they be within states or among states facing the highest risk, 
receive priority assistance from the federal government. We 
also look forward to hearing your thoughts on ways to simplify 
the process for states and localities to seek and receive funds 
for their first responders and how these funds have been 
utilized.
    At present, we have in many cases a 12-step formula for 
obtaining first responder grants. Legislation that we are 
considering here today would change that to a two-step formula 
and vastly speed up the process, simplify it, make it more 
understandable and comprehensible for people around the 
country.
    Lastly, we would like to hear your suggestions on how the 
Department of Homeland Security can further support states, 
local governments and first responders in the full range of 
their responsibilities.
    Chairman: I would like to welcome the Members in attendance 
this afternoon and thank both distinguished panels of witnesses 
for appearing today.
    None of us has forgotten the images of those first 
responders who gave their lives to rescue an estimated 15,000 
men and women from the World Trade Center Towers or those who 
responded so quickly at the Pentagon on September 11, 2001.
    The events on that tragic day reminded all of us of the 
indispensable role our firefighters, police officers, and 
emergency medical service personnel fulfill every day. It 
forced all of us to rethink the way in which the federal 
government works with state and local communities to detect and 
prevent, but also to prepare to respond effectively, to acts of 
terrorism.
    Since that tragic day in September, Congress has increased 
the funding for the estimated 2 million first responders by 
over $20 billion, a 1,400 percent increase in anti-terrorism 
aid to states and localities. Unfortunately, however, this 
massive infusion of funding is not reaching our first responder 
community fast enough, and sometimes not at all. We are here 
today to find out how we can to do better.
    Just last month, the Committee visited California for a 
field hearing on Port Security in the Ports of Los Angeles and 
Long Beach, and to meet with the first responder community in 
neighboring Orange County. One of our witnesses here today, 
Assistant Sheriff Jaramillo, was eloquent in discussing the 
broken pipeline funneling money from Washington to the States 
and in offering suggestions on how to better coordinate Federal 
grants programs.
    There was also some good news. We heard encouraging 
testimony from Los Angeles County Sheriff Lee Baca and Orange 
County Sheriff Mike Carona about inter-jurisdictional 
information sharing between Orange and Los Angeles Counties and 
about the joint Orange-LA County Homeland Security Advisory 
Council. The Council meets regularly and brings federal, state, 
and local government officials together with private sector 
representatives to develop a homeland security strategy for the 
region. They have--on their own initiative--made real progress, 
which we want to recognize and reward. Regional cooperation is 
a top priority.
    Washington must also encourage the states to quickly and 
efficiently release Federal grant money to the localities that 
are most as risk. Washington must do its part to fix the broken 
pipeline which carries federal money to the states to enhance 
their state-wide efforts. We in Congress must also do a better 
job of providing states and localities the information they 
need to allocate those resources efficiently to those areas 
facing the greatest risk of attack.
    But perhaps the most important point is that these funds 
can no longer be distributed based on political formulas. In 
this and so many other areas of the homeland security mission, 
we need better intelligence to understand the terrorist threat 
and we must get this information to the first responders who 
require it to enhance our security. We must have better 
intelligence and we must find ways to share it more broadly if 
we are to bound the terrorist threat, if we are to limit our 
vulnerabilities, and if we are to develop cost-effective 
solutions.
    Nearly two years after the attacks of September 11, grants 
are still being distributed to states using political formulas. 
Formulas, in fact, that take no account of whether the 
recipient is, based on our best intelligence, at risk. 
Presently, the Office for Domestic Preparedness within DHS 
distributes a baseline amount of .75 percent of the total 
amount appropriated to the grant program to every state--
regardless of location, population, geographic size, number of 
critical assets and terrorist targets. This baseline amount is 
then followed by a population-based distribution.
    The formula has resulted in an astonishing distortion in 
funding for first responders. California, a state with 70 times 
the population of Wyoming--receives just under $5 per person in 
first responder grants while Wyoming receives over $35 per 
person. Wyoming's largest city--Cheyenne--has a population of 
53,000, while California has 140 cities with populations equal 
to or above that number. A distribution system based on 
population alone creates such distortions. We need to apply 
some common sense and bring threat assessment into the 
calculation.
    Congress has offered ODP virtually no guidance on the 
structure of first responder grants, the methods of 
distribution, or guidelines to recipients on allowable use of 
these funds. As a result, Congress is appropriating and the 
Department is allocating billions of dollars to states with 
very little input from Congress on how these decisions should 
be made.
    This is not to say that Wyoming faces no risk of 
terrorism?every state in the Union faces some risk and plenty 
of vulnerabilities. But the great disparity in the distribution 
of funds must be fixed so that states are better supported to 
face these risks. We need to prioritize based on real risk of 
attack?real threats.
    Today, the Committee looks forward to hearing suggestions 
on how the grant formula can be changed to integrate risk-based 
analysis into the formula so that states facing the highest 
risk receive priority assistance from the federal government. 
We also look forward to hearing your thoughts on ways to 
simplify the process for states and localities to seek and 
receive funds for their first responders, and how these funds 
have been utilized. Lastly, we would like to hear your 
suggestions on how the Department of Homeland Security can 
further support States, local governments, and first 
responders.
    I would recognize next, for purposes of an opening 
statement, my distinguished colleague from Texas. The gentleman 
is the ranking member on the committee, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman and welcome, Governor.
    We are glad that you are with us today. I had the 
opportunity to visit just a few minutes ago with your co-chair, 
Governor Minner of Delaware. I had good visit with her, and 
both of you seem to be doing outstanding work on behalf of the 
governors. It is a pleasure for us to have the opportunity to 
hear from you today.
    As we convene this hearing today, Mr. Chairman, we all know 
that it is likely that somewhere a terrorist group is 
developing plans to use chemical, biological, radiological or 
other weapons of mass destruction to attack our nation.
    At the same time, federal, state and local emergency 
preparedness officials across the nation are working to prevent 
and prepare for such attacks.
    Congress created the Department of Homeland Security to 
comprehensively address the need to prevent, prepare for, 
respond to and recover from the threat of terrorism. And as I 
have suggested in the past in meetings of this committee, a 
principal mission of the Department of Homeland Security is to 
ensure that all levels of government, across the nation, have 
the capability to work together efficiently and effectively, 
using a national approach to domestic incident management.
    We are gathered here today to make sure that these words 
become a reality, and that the Department of Homeland Security 
is creating a genuine partnership among the state, federal and 
local officials who are committed to making America safer. It 
is our duty to make sure that the might of federal government 
is being put into action to prepare America, to prevent, 
respond to, and recover from attacks.
    On June 29, the Council of Foreign Relations's Independent 
Task Force on Emergency Responders released a report entitled, 
``Emergency Responders: Drastically Underfunded, Dangerously 
Unprepared.'' The report stated that nearly two years after 
September 11, the United States is drastically underfunding 
State and local emergency responders, and remains dangerously 
unprepared to handle a catastrophic attack on American soil.
    The work of this expert, bipartisan task force makes clear 
it that we must move faster and stronger to prepare our 
communities in order to protect our nation. We rightly made a 
commitment to provide the very best training and equipment to 
our troops in Afghanistan and Iraq. Now we must make the same 
level of commitment to the men and women who will be the first 
to respond in the case of a terrorist attack here at home.
    Both the task force report and my ongoing discussions with 
emergency responders around the country have demonstrated to me 
that the time for comprehensive change in our preparedness 
programs is now. I plan, with the help of the members on the 
Democratic side--and I hope to work jointly with the chairman--
to address both the critical deficiencies identified in the 
report, and the Department of Homeland Security's partnership 
with state and local governments by introducing legislation to 
deal with these issues.
    This first responder legislation, in my judgment, should 
deal with four critical issues.
    First, we must define preparedness. The legislation should 
require the Department of Homeland Security to provide clear 
guidance to communities on necessary skills and resources 
required to prevent, prepare for and respond to terrorist 
attacks.
    Communities will apply this guidance to their individual 
threats and vulnerabilities, in order to determine their 
specific needs and necessary funding.
    Second, we must build, State and local capabilities.
    Our legislation should direct the Department of Homeland 
Security to create a single terrorism preparedness grant 
program and a one-stop shop to cut bureaucratic red tape in 
order to address communities' lack of essential equipment and 
training capabilities.
    Traditional programs, such as COPS and the Fire Grant 
Program, should be preserved, but the new combined grant 
program should be flexible enough to address the legitimate 
needs that we are hearing about every day from our first 
responders.
    The third area that our legislation must address is the 
issue of interoperable communications. The legislation should 
direct the Department of Homeland Security to make 
recommendations on spectrum needs, provide funds for an interim 
interoperable communications capability in major metropolitan 
areas, and work with industry and first responders to set 
standards for equipment and communications systems.
    And lastly, our legislation should revise the early warning 
system.
    The legislation should direct the Department of Homeland 
Security to reform the homeland security advisory system to 
identify threats by region and by critical infrastructure 
sector.
    The department also should ensure continuous, actionable 
information sharing with state and local officials. Security 
clearance for state and local personnel should be funded and 
expedited as appropriate.
    The task force report that I referred to earlier and the 
continued call for systemic to the funding system changes from 
state and local emergency responders are a wake-up call to our 
nation. They show that America's security needs are great, that 
they are not being met and that we must act now.
    America's enemies are united in their desire to harm 
America, and we must be united in moving faster and deploying 
stronger forces to win the war on terror.
    I look forward to hearing the excellent testimony that will 
be offered to this committee today, and I want to thank in 
advance all those who have come to share their ideas with this 
committee, to help us move faster and stronger in support of 
our first responder community.
    Thank you, Mr. Chairman.
    Chairman Cox. Thank the gentleman.
    The Chair next recognizes for the purpose of an opening 
statement the Gentlelady from the State of Washington, the vice 
chairman of the full committee, Ms. Dunn.
    Ms. Dunn. Thank you very much, Mr. Chairman.
    Thank you and thank you, Governor Romney, and to our entire 
panel for being here with us today.
    It is so important to us in our effort to figure out what 
is working well and what needs improvement, to hear from you 
who are there on the front lines and from all representatives 
at all levels of the network that is charged with keeping our 
constituents safe.
    We will only be successful in preventing attacks and 
preparing for disasters if everybody is engaged in the effort, 
including federal, state and local government, as well as the 
private sector.
    First responders are absolutely essential to securing our 
homeland. They are on the ground, often risking their own lives 
to help keep the rest of us safe.
    Most of the time they are working for a local government 
who can't afford the costs of prevention, preparedness and 
response any more than can the governors of the states, or the 
federal government. These organizations must be provided the 
resources necessary to carry out training exercises, to hire 
personnel and to buy the equipment that they need.
    I have heard recently growing criticism and growing concern 
among local law enforcement and first responder groups about 
the channels through which federal dollars must pass before 
reaching them. Some complain that instead of flowing through 
the governors' offices, the funding should be directed to local 
jurisdictions.
    I look forward to hearing our witnesses talk about whether 
current funding strategies are working. Our job as an oversight 
committee is to help make sure that committed federal dollars--
and we know there are many--are being delivered and spent 
efficiently and are getting to those who are on the ground and 
who need this money to carry out their own responsibilities.
    I recently had the opportunity to witness the first 
responder organizations in my own district, in Washington 
state, exercising their emergency preparedness skills during 
the TOPOFF 2 exercise that was held in Seattle. The lessons 
learned from this exercise will prove to be invaluable to the 
Department of Homeland Security and to all of us on this 
committee.
    It is without a doubt that exercises such as this one 
improve our capabilities and develop a network of the 
stakeholders who are involved in disaster response and crisis 
management.
    I was pleased to see top federal and state officials, 
mayors, city managers, hospitals, law enforcement units, fire 
departments, the Red Cross and local businesses all working 
together during TOPOFF 2. Their ability to, in effect, practice 
the response to a potential terrorist-caused disaster enabled 
them coordinate who would act as the lead agency and how and 
who would make the critical decisions. This communication 
network is a critical base on which the public will rely for 
timely response in an emergency situation.
    I cannot underscore enough to you our belief in the 
importance of first responders to the broad goal of keeping our 
constituents safe. We must keep our focus on steps that will 
allocate funds in an efficient, but a sensible way, and make 
sure the dollars get to the ground.
    I look forward to the hearing.
    Thank you, Mr. Chairman.
    Chairman Cox. I thank the gentlelady.
    Who next seeks recognition for purposes of an opening 
statement?
    Mr. Thompson?
    Mr. Thompson. Thank you, Mr. Chairman.
    I am pleased that we have assembled this witness panel 
today to discuss the critical issue of the federal, state and 
local partnership for terrorism preparedness.
    In previous hearings, officials from the Department of 
Homeland Security have stated that they are working to ensure 
that all levels of government across the nation have a 
capability to work efficiently and effectively together using a 
national approach to terrorism preparedness.
    As I have stated before, the job of this committee is to 
provide an oversight function for the department, and thereby 
assist local units of government in three key phases of hazard, 
mitigation, prevention, response and recovery.
    To that end, I continue to encourage the department to 
listen closely to the needs, successes and frustrations of our 
first line of homeland defense, the first responders.
    DHS must create more open and frequent lines of 
communication. The men and women who prepare our communities 
for disasters and then help our communities to rapidly recover 
are absolutely critical.
    I have met frequently with these men and women in my 
district, and I have told them that the work we do here in 
Washington must match the needs of the people at the local 
level. It is my belief that these needs are not being met.
    Put simply, DHS is not preparing local communities to 
prepare for and respond to terrorist attacks. For example, DHS 
has not worked with state and local governments to determine 
when communities are prepared for terrorist attacks. We don't 
know what equipment, planning, training and personnel and how 
much funding are needed to secure communities.
    The first responder grant program is broken. Current grants 
can't target the greatest needs, take too long to reach first 
responders, pit agencies against each other in applying for 
funds and are overly bureaucratic. Our response personnel can't 
talk to each other. DHS is not assessing the interoperability 
communications problems.
    Finally, specific threat information is not readily 
available to states and localities. DHS is not providing first 
responders with timely intelligence and threat information. We 
must move faster, and we must be stronger in our efforts to 
protect and defend the United States of America.
    I hope the testimony we hear today will assist us, Mr. 
Chairman, in developing a road map for doing so.
    Lastly, representing primarily a rural area, I don't want 
us to miss rural America in this discussion. We have to include 
rural America.
    I yield back.
    Chairman Cox. I thank the gentleman. Obviously, there is 
now a vote on the floor. There will be 15 minutes in the first 
vote. And so, we will proceed either with opening statements or 
the testimony of our first witness. Members are reminded that 
under the rules of the committee, a member who waives his 
opening or her opening statement have three minutes added to 
their opportunity for questioning the witness.
    Who seeks recognition on this side for purposes of an 
opening statement?
    Seeks recognition of the gentlelady from California.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Chairman, I have a written opening statement. I would 
like to submit it for the record. And just to save a little 
time here, I would just like to go over some six points just 
for our panelists in case, when you are talking to us, you 
might be able to hit in particular on these six that I would 
like to try to get some information on what we can do to make 
this system better.
    The first would be the whole issue of allocating resources 
from the federal government on a risk basis, as the chairman 
indicated. I think it is the most important reason that we are 
here, and we would like to hear your ideas.
    The second would be how to make the pipeline shorter. And I 
know that we have the governor here from Massachusetts. But, at 
least in my state, people are telling me that when you send it 
to the state, it doesn't necessary get to the local level. So 
for the locals here, I would like to hear what ideas you have 
with respect to shortening that pipeline to getting it down.
    The third thing would be to preserve the cops and the fire 
programs that we have and not be cannibalizing from those and 
saying that it is homeland security money now. So I would like 
to hear if that is happening to any of you out there.
    The fourth, it is my belief, in having met with all of my 
first responders up and down the state now in California, and 
there is quite a bit, all from the very smallest agency to our 
great sheriffs in L.A. and in Orange County, that maybe our 
grants aren't hitting the right items. In other words, we don't 
have grants for overtime or personnel costs. And, in the city 
of Anaheim, protecting Disneyland and all our other great 
assets there. It is about money, money spent to pay our first 
responders when we go on orange alert.
    I also would like to hear, and I haven't taken the look all 
the way down, on the hospitals because I think they are a piece 
of the first responder equation that some of us tend to forget. 
So if any of you have any ideas on how we might be able to help 
there.
    And lastly, and some of the members have mentioned it, I 
think the chairman mentioned it in his opening remarks, the 
whole issue of standards. For example, some of my local law 
enforcement said that the standards for masks and these types 
of equipment are really military standards. And are they 
necessarily the standards that we need for equipment that would 
be used on a first responder basis within our own city?
    So if you have any ideas on that, I would appreciate it.
    And I will yield back to Mr. Chairman.

PREPARED STATEMENT OF THE HONABLE LORETTA SANCHEZ, A REPRESENTATIVE IN 
                    CONGRESS FROM THE STATE OF TEXAS

    Thank you, Mr. Chairman. I would first like to welcome our 
distinguished guests and thank each of you for coming here today to 
talk about this well-publicized and enduring issue facing local 
communities throughout the country. Since September 11 our local first 
responders have taken exemplary measures to make sure that, in the face 
of a new national security reality, they are ready to respond to 
another terrorist event. However, despite these efforts, recent high-
profile reports, such as the one that was completed by one of our 
distinguished witnesses here today, have determined that our first 
responders remain ``drastically underfunded'' and ``dangerously 
unprepared.''
    As Members of Congress, many of us have met with our local 
responders, and we know how dire the situation is. We have heard what 
they are telling us, we understand their need for federal funds, and we 
fought in a number of venues-- during the tax cut, through the 
appropriations process, etc.--to bring more money home to our local 
police, fire fighters, emergency personnel, and hospital 
administrators. However, here we are, almost two years later, and for 
most of these individuals and agencies the situation remains 
unimproved. Our locals don't have clear guidelines on what it means to 
be ``prepared,'' they are not receiving the information they need to be 
aware of impending threats, and many of them still haven't seen ANY of 
the billions of dollars in new funding that the Administration has 
constantly promised to help with their new national security mission. 
This cannot go on.
    We need to start doing more than just talking. We need to develop a 
threat-based plan that will provide adequate money to our first 
responders without overspending, that will provide the means to ENSURE 
that this money promptly gets to the entities that need it, and that 
will provide first responders the guidance on how to best use this 
money. And we need to be doing this as quickly as possible.
    It has been almost two years since September 11. I don't think that 
anyone in the homeland security business doubts that a terrorist group 
somewhere has been using that time to plan another attack on our 
country. Ideally, we would be able to foresee and prevent such an 
attack. However, if we are not so lucky, we need to make sure that our 
first responders are ready. We need to make sure that America's own ill 
preparedness doesn't end up hurting us more than the terrorists could 
themselves.

    Chairman Cox. Thank you, gentlelady.
    The gentlelady from New York is recognized for purpose of 
an opening statement.
    Mrs. Lowey. Thank you, Mr. Chairman.
    Chairman Cox. Oh, I am sorry. I have gone in the wrong 
order here. I apologize.
    I wanted to recognize one or both of the gentlemen from 
Massachusetts, for purposes of recognizing and introducing our 
first witness. But if you want to also make an opening 
statement, I will recognize now for that purpose.
    The gentleman from Massachusetts.
    Mr. Markey. Thank you. And I will just take a minute.
    And it will also be a welcome to the governor as well. We 
are very grateful to you, Governor, for coming down here today 
to provide your insights to the Homeland Security Committee on 
these very important issues.
    The governor was the chairman and the CEO of the very 
successful Olympics in Salt Lake City. Obviously, there he had 
the great responsibility of providing against a successful 
terrorist attack upon their very high profile international 
event, and he did a very good job in ensuring that we had a 
very successful Olympics.
    Up in Massachusetts, obviously, there are many issues that 
provide examples, illustrations, of the problems that we have 
nationally. Logan Airport is the place where both planes were 
hijacked that flew into the World Trade Center.
    The LNG facilities in Boston Harbor are the only urban-
sited LNG facilities in the United States. They provide special 
security problems. And next year we are going to have the 
Democratic National Convention in Boston, and the governor's 
working very hard on that issue.
    Never before has a Republican worked so hard and providing 
so much safety for so many Democrats, and the governor is doing 
a good job in ensuring that we are going to have a great 
convention next year.
    And we welcome you, Governor. And we thank you for your?
    Mr. Frank. Mr. Chairman?
    Chairman Cox. The gentleman from Massachusetts, Mr. Frank.
    Mr. Frank. I fully agree with everything my colleague said, 
except one slight amendment. The governor gets a lot of 
practice in providing protection for a lot of Democrats every 
day that he provides security at the State House, as we know.
    I am very pleased that the governor is going to come here 
and share his broad experience with us. I just want to stress 
the central point. We are here talking about how essential it 
is that government, federal, state and local government, have 
access to enough resources to protect us.
    We have in this society debates about what is appropriate 
for the private sector or the public sector, and there is a 
role for the private sector here. But it is overwhelmingly a 
public sector responsibility, and it is, I hope, important for 
people to remember there is a temptation to kind of demonize 
government, there is an argument that says less government is 
always better.
    And we should be very clear, this is a public function we 
are talking about, to be discharged only by government. And let 
us also be very explicit. State, local and federal government 
can only do their jobs if taxes are at a level sufficient to 
produce revenues for them to do this.
    There is sometimes a disconnect in this society in which 
taxes are always bad, and the things that taxes pay for are 
always good. I am a great believer in volunteerism, and I know 
there are volunteer fire departments some places.
    But the people I am aware of, the cops and the firefighters 
and the EMTs and the others, on the whole, I don't expect them 
to be volunteers. I don't think we can expect people to risk 
their lives on a regular basis and acquire a great degree of 
expertise on a regular basis as volunteers.
    So I just would remind everybody we are talking here about 
government.
    And the notion that you can continually shrink government 
and denounce government and demonize government and talk about 
public employees as somehow people who don't produce as much, 
and do this job well, don't work together.
    So I am very glad to be here as we on a bipartisan basis 
celebrate the importance of government.
    Chairman Cox. I thank the gentleman. There are seven 
minutes remaining in the vote. Does any member wish to be 
recognized for purposes of an opening statement?
    The gentlelady from New York.
    Mrs. Lowey. Yes, I will take a couple of minutes, because 
it is my distinct pleasure to thank Fire Commissioner Ray 
Kiernan for joining us today. Mr. Kiernan is the fire 
commissioner of the New Rochelle Fire Department, a member of 
the Westchester Career Fire Chiefs, the Northeast Regional Fire 
Consortium, and Commissioner Kiernan visits us from my district 
in Westchester County, New York, and I am delighted to have him 
here.
    Ray has given over 30 years of his life to protecting our 
local community, and we are grateful for his service. He is on 
the front lines of emergency preparedness and response, and can 
speak firsthand to the challenges he has faced throughout the 
years and since the attacks on September 11.
    We are here today to discuss additional efforts we can take 
to win the race between those plotting to harm this country and 
those working to prevent it.
    It is critical that we as a committee and as a Congress 
make smart, calculated decisions on how funds are allocated, 
based on input from our first responders and state and local 
officials.
    We must address issues of operability, communication and 
coordination, and we must address them now. I agree with the 
Council on Foreign Relations that we obviously can't spend 
every last dime of the GDP on response and preparedness. Nor 
would this be fruitful.
    However, two things are clear: First responders are 
underfunded, and a better process must be put in place to 
coordinate and disseminate these funds. The federal, state and 
local governments cannot operate in a bubble. And every first 
responder unit cannot work independently of one another.
    We will hear Commissioner Kiernan describe an exceptional 
example of how one community came together and made a strategic 
decision to coordinate preparedness efforts and maximize 
available funding. Commissioner Kiernan and his colleagues in 
Westchester County are doing everything they can to keep our 
communities safe. But they, like many others, need additional 
support.
    I am pleased that I was able to secure funding for this 
preparedness program through the appropriations process. While 
this funding will be helpful, however, we all know that this 
piecemeal approach is the wrong way to get things done. We must 
coordinate better. We must make responsible decisions. And we 
must listen to our local heroes.
    Thank you, Mr. Chairman.
    Welcome, Governor and welcome to all of our other 
witnesses. Thank you.
    Chairman Cox. I thank the gentlelady.

       PREPARED STATEMENT OF THE HONORABLE SHEILA JACKSON-LEE, A 
           REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

    We are here today to strengthen the partnership between federal, 
state, and local homeland security officials. Our main goal should be 
getting funds and equipment to our local communities. Our local 
communities and first responders need to prepare for terrorist attacks 
now. To prepare they need federal funds now. Hundreds of millions of 
dollars have been authorized and appropriated for homeland security, 
but far too many of our first responders tell us they are not getting 
the funds they need. We must expedite the funding process and get 
resources to our local communities immediately.
    The amendment I proposed would have helped local communities 
prepare for terrorist attacks immediately. The amendment directed a 
percentage of funds directly from the Department of Homeland Security 
to city and county agencies to eliminate unnecessary paperwork and 
delay. For many homeland security grant programs, local communities 
must submit a lengthy grant application to the Department of Homeland 
Security. If the grant is approved the funds are allocated to the 
States, not to the locality that applied for the funds.
    Presently, there are twelve steps that a local agency must go 
through in order to receive grant funds. That is far too much delay; 
The Members of the Select Committee on Homeland Security must 
collaborate with our federal, state, and local agencies to expedite the 
process so that needed funds can be received, equipment can be 
purchased, and training programs can be conducted.
    As I have said many times before, America is still not safe. Our 
communities remain vulnerable to terrorists, our police departments, 
fire departments, hazardous materials teams, and emergency medical 
technicians remain insufficiently funded, trained, and equipped. Our 
hearing today to discuss strategies for strengthening the partnership 
between federal, state, and local agencies is an important step. But we 
must follow through with action. The safety of every American citizen 
depends on it.

    The Chair announces that the hearing will remain open 
during this vote, but we will postpone further statements or 
the introduction of our witness until the conclusion of the 
current round of votes on the floor of the House. I anticipate 
that will put us back in this hearing room immediately after 
the last vote, at approximately 2:15.
    I thank the witnesses and the members for their patience.
    [Recess.]
    Chairman Cox. I would like to welcome our members back from 
the floor.
    Again, I would like to thank our distinguished witnesses 
for your indulgence.
    Governor Romney, I understand that you have committed to be 
with us for two hours, and that you have a hard deadline that 
you have to meet at 3:00, and we appreciate that.
    I believe that we are finished with opening statements, but 
I will ask if those members that are here whether any member 
wishes to make an opening statement.
    Mr. Etheridge?
    Mr. Etheridge. I will be brief, Mr. Chairman, recognizing 
the governor's time.
    Thank you.
    And let me thank you and the ranking member for giving 
those of us on Homeland Security Committee the first 
opportunity to hear from state and local officials.
    And Governor, we are glad to have you here.
    As has been stated already, former Senator Rudman and the 
Council on Foreign Relations have provided Congress with an 
important evaluation of the state of our nation's first 
responder community with a report, ``Emergency Responders: 
Dramatically Underfunded, Dangerously Unprepared.''
    I think it documents many things we have to do, should do 
and must do to help our first responders across the nation, and 
I have heard that firsthand from my people in North Carolina.
    And as we all know, law enforcement officials and 
firefighters will be the first people on the scene of any 
domestic terrorist incident. And Congress must make sure that 
they have the training and the equipment they need to properly 
evaluate the situation, to best protect the public and 
themselves.
    I welcome the opportunity to hear from the governor, and 
representatives of Los Angeles and Orange County Sheriff's 
Department and others who are here today.
    They obviously have a lot of experience in terrorist 
prevention activities.
    However, I think it is absolutely critical that the Select 
Committee on Homeland Security hear from testimony from 
emergency responders from small states and rural areas. We need 
to hear from police officers, emergency medical technicians, 
emergency room doctors, public works officials. Those are the 
people on the front line every single day of the year.
    And they play a critical role in our nation's defense and 
response network, and I would say, Mr. Chairman, why that is so 
critical: When the response code goes up it doesn't say just to 
New York or to Boston or somewhere else, you would be on alert. 
It says to every state, every volunteer fire department, every 
police department, you have to go up on alert.
    So they don't where it is going to happen. And the results 
of that I acknowledge that there are those who need to have 
more, but we can't ignore the thousands upon thousands of 
volunteers across this country, who have to meet the same 
standard every time that code goes up.
    So Governor, we look forward to hearing from you.
    You should have some information that we could use, and I 
look forward to it.
    And thank you, Mr. Chairman, and I yield back.

PREPARED STATEMENT OF THE HONORABLE BOB ETHERIDGE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NORTH CAROLINA

    Thank you, Chairman Cox and Ranking Member Turner, for giving 
members of the Homeland Security Committee the first opportunity to 
hear from state officials and local first responders on their needs and 
concerns.
    Former Senator Rudman and the Council on Foreign Relations have 
provided Congress with an important evaluation of the state of our 
nation's first responder community with their report ``Emergency 
Responders: Drastically Underfunded, Dangerously Unprepared.'' The 
report documents many of the concerns I have heard from the first 
responders in North Carolina.
    As we all know, law enforcement officials and firefighters will be 
the first people on the scene of any domestic terrorist incident. 
Congress must make sure that they have the training and equipment they 
need to properly evaluate the situation to best protect the public and 
themselves.
    I welcome the opportunity to hear from Governor Romeny and 
representatives of the Los Angeles and Orange County Sheriff's 
Departments. They obviously have a lot of experience in terrorism 
prevention activities.
    However, I think it is absolutely critical that the Select 
Committee on Homeland Security hear testimony from emergency responders 
from small states and rural areas. We need to hear from police. 
officers, emergency medical technicians, emergency room doctors and 
public works officials. These people are on the front lines every day, 
and they play crucial roles in our nation's defense and response 
networks.
    I call on the Congress and this Administration to make the training 
and equipping of our nation's first responders a top priority. It is 
the responsibility of the Administration and Congress to make sure that 
they have the information, training and resources necessary to protect 
the men, women and children of America, as well as themselves.

    Chairman Cox. I thank the gentleman for his statement.

      PREPARED STATEMENT OF THE HONORABLE LINCOLN DIAZ-BALART, A 
          REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA

    Mr. Chairman I believe this hearing gets to the heart of the 
matter. If local, state, and federal officials aren't working as an 
effective team, we place ourselves at a grave disadvantage in 
preventing another terrorist attack, and particularly will endanger 
many more Americans if one were to occur.
    The Bush Administration and the Congress have made emergency 
preparedness and response a top priority since the attacks on September 
11, 2001. This commitment is clearly evidenced in the House version of 
the Homeland Security Appropriations bill.
    In the House passed Homeland Security Appropriations bill for 
fiscal year 2004, we have funded the Office of Domestic Preparedness' 
basic formula grant program at $1.9 billion.
    The House has also approved $500 million each for the state and 
local law enforcement terrorism prevention grant program and the high-
threat, high-density urban areas grant program. We further provide $750 
million for Firefighter Grants and $200 million for Infrastructure 
Grants. However, our responsibility does not end with the 
appropriations process. We must also ensure that the funds are getting 
into the hands of our local first responders, but we must also make 
certain that this is done in a way that the process ensures strategic 
thinking and coordination.
    Thank you Governor Romney particularly for your written statement. 
I agree that our states must be prepared with comprehensive response 
plans and that the plans must be based in a sound analysis of the 
potential terrorist threat.
    We've seen in Florida that the only way to respond to such a 
disaster as a hurricane, federal, state, and local officials have to be 
working as one with clear roles and clear communication.
    Unfortunately, a terrorist attack often gives no warning compared 
to most natural disasters. It will test our officials and response 
mechanisms to a greater degree. But we have fine men and women that 
understand the magnitude of their efforts.
    Thank you again, and I look forward to your testimony.

PREPARED STATEMENT OF THE HONORABLE JAMES R. LANGEVIN, A REPRESENTATIVE 
               IN CONGRESS FROM THE STATE OF RHODE ISLAND

    Thank you, Mr. Chairman. We have an exceptional group of witnesses 
with us today, and I am very much looking forward to hearing their 
testimony.
    I am particularly interested to hear from Jamie Metzl about the 
work of the Council on Foreign Relations on first responder issues and 
the conclusions and recommendations of the Council' recent report. We 
all know that more needs to be done to ensure our communities are 
prepared for an emergency, but putting those needs into concrete terms 
has been a continuing challenge. Mr. Metzl and his colleagues have 
provided an excellent tool for us to use in rising to that challenge, 
and I hope Congress and the Department of Homeland Security will take 
advantage of their research and use it as a blueprint for continued 
progress.
    It has become clear that one of the critical ``missing links'' on 
the path to preparedness is a set of national standards and guiding 
principles that can be used at the federal, state and local levels to 
measure progress and determine shortfalls. I hope our witnesses will 
spend some time discussing the issue of preparedness standards and how 
they might help sharpen the focus of emergency responders on the most 
critical capabilities and provide direction to Congress in determining 
where our limited federal resources will be most effective.
    Finally, and at the risk of sounding like a broken record, I am 
interested to hear about one of my top priorities--the intelligence 
aspect of DHS. It is my strong conviction that the regular 
dissemination of reliable and specific threat information from DHS to 
state and local agencies and emergency responders is critical to 
achieve a satisfactory level of preparedness. I hope Governor Romney 
and our first responder witnesses will speak to the frequency and 
quality of intelligence that they have been receiving from the 
Department. If, as I suspect, the information you are receiving has not 
been sufficient, I would like to know what additional information you 
need, how often and in what form, in order to ensure the safety of 
those who rely on you.
    Again, I thank our witnesses for being with us today, and I 
appreciate the Chairman giving me this time.

    And we next will hear from the Honorable Mitt Romney, 
governor of the Commonwealth of Massachusetts, who comes to us 
as former president and CEO of the first post-9/11 Olympics.
    You have a unique understanding of the challenges we face 
in preparing against potential terrorist acts for that reason 
alone. But you come, also, to us as governor of a coastal 
border state, a high-tech state, a popular state with a diverse 
industrial base that was one of the staging areas for the 9/11 
hijackers. And you come to us as co-chairman of the National 
Governors Association, homeland security efforts.
    And so, Governor Romney, you are uniquely qualified to 
address the issues that are before us today, and we welcome you 
and thank you for being here with us.
    We have your prepared testimony, and we thank you for that. 
It is in the record. And so you are free to summarize your 
remarks as you see fit.

STATEMENT OF THE HONORABLE MITT ROMNEY, GOVERNOR, COMMONWEALTH 
                        OF MASSACHUSETTS

    Governor Romney. Thank you, Mr. Chairman, also Congressman 
Turner and the congressman from Massachusetts, who are I 
believe are returning. Thank you for welcoming me here today.
    I do come representing the National Governors. And along 
with Governor Ruth Ann Minner of Delaware, we worked together 
to help chair a homeland security committee at the National 
Governors Association.
    Mr. Chairman, you mentioned my experience with the 
Olympics. I had in that respect a real learning experience 
associated with homeland security. And in that setting, where 
there was a limited time frame and limited geography, I saw how 
homeland security efforts can be planned and implemented in 
such a way to really create a very effective, comprehensive 
homeland security plan.
    As I become governor I recognize we have much greater 
challenges. We are dealing with issues on a much greater scale. 
But I acknowledge that, if you will, the metaphor, Are you 
going from drinking from a drinking fountain to drinking from a 
fire hydrant, as you look at the scale of issues that we have.
    I salute the effort that is being done by the Department of 
Homeland Security, by the governors, by the first responders, 
by all who come together in the area of homeland security. But 
we are facing enormous challenges with very little time. And we 
are working very quickly, and I think good progress is being 
made.
    There were, however, some principles from the Olympic 
experience where I think the homeland security effort was in 
many respects ideal, that I think can help us as we look at 
what we are doing on the homeland security front nationwide.
    First, I believe we were successful in part because we had 
a comprehensive, holistic homeland security plan for the assets 
and people we were protecting.
    In the Atlanta games, we learned that if you ask each of 
the communities to come up with their own plans, that the 
communities cobble together their individual plans, but in many 
respects these plans aren't comprehensive. They are gaps 
between them. Oftentimes, the communications systems are 
lacking. There is not a centralized command and control system.
    And in Atlanta we learned that the system did not work by 
asking all of the municipalities to create their own plans and 
somehow stapling it together and thinking that was a holistic 
plan.
    Following Atlanta, a decision was made to create a far more 
comprehensive effort. And by funneling the funds through one 
source, and that was the Utah Olympic Public Safety Command, we 
were able, in the state of Utah preparing for the games, to 
have the local, state and federal agencies all work together in 
one entity that created a plan for the safety of the community 
being protected.
    That plan was holistic, comprehensive, and it allowed us to 
have equipment that worked across the venues to have personnel 
that could move across the venues, a single training system.
    That kind of holistic approach to planning is essential, I 
believe, in homeland security. I would say that the decision to 
have states be the source of the funding is a critical element 
in having the ability to create a holistic plan.
    I have noted that in the most recent appropriation that has 
been made by the federal government to the states, directing 
that 80 percent of the funds reach local municipalities, that 
virtually every single state that has received these funds has 
now within 45 days distributed the money to the localities.
    This is a big change from the past, but the pipeline is now 
open and functioning well. This is on the basis of a National 
Governors Association survey that we have carried out.
    Secondly, I would note that it is essential to have 
guidelines as to what it is we are trying to accomplish. If you 
ask the cities and towns and the states how much money they 
need for homeland security, but don't tell them what you expect 
them to do, what kind of event they are trying to prepare for, 
how they are supposed to protect a particular asset, then the 
sky's the limit as to what they will come back with.
    In the case of the Olympics, we said precisely what we were 
trying to accomplish at each venue, the level of security 
required, and then developed a plan to achieve it.
    Number three, we had to make sure that the money at the 
Olympics was going to the place where the risk was greatest, 
and so we assessed all of the things we were doing at the 
Olympics, the degree of risk associated with each of them, and 
we allocated our resources according to those risks, and made 
sure that the dollars were going where the threat was greatest.
    I recognize that the Department of Homeland Security has 
adopted that very principle in carrying out the homeland high-
threat assessment and developing procedures by which funds are 
going to the areas of greatest risk.
    Fourth, I would say that, Mr. Chairman, you mentioned the 
word of prevention and intelligence. I think one of the areas 
that is a potential gap in our own state's homeland security 
effort is in thinking about the gathering of information, 
taking information and turning it into intelligence, through 
analytical work, and deciding who it is that is responsible for 
that intelligence function.
    Is that a local function? Is it something our state police 
should be doing? Is this something that is the sole 
responsibility of the FBI? But we need to have a very clear set 
of guidelines as to who it is that is doing the intelligence 
work, how that is being funded, how it is being supported, what 
kind of communication we have across the intelligence world, to 
gather and process this information.
    And I believe that there is much more that we as a state, 
and I am sure we as a nation, should do to assure a more 
effective program, not just in responding to homeland security 
crises, but in preventing them, and assuring that our 
intelligence is superb.
    I would say that particular aspect of the Olympic 
experience was the most unique in my regard. We had a very 
large number of intelligence teams evaluating threats prior to 
the games and during the games. That is primarily why the games 
were safe, not just defensive, not just the magnetometers, but 
the fact that we had intelligence work going on extensively 
prior to and during the event itself.
    I appreciate the chance to meet with you.
    There were many questions that were asked by the various 
members as they made their introductory comments. I would be 
happy to respond to those anytime you would like to provide.
    Thank you, Mr. Chairman, and also Mr. Turner.
    [The statement of Governor Romney follows:]

PREPARED STATEMENT OF THE HONORABLE MITT ROMNEY, GOVERNOR, COMMONWEALTH 
                            OF MASSACHUSETTS

    Mr. Chairman: I appreciate this opportunity to testify before the 
House Select Committee on Homeland Security and thank you and Ranking 
Member Turner for seeking the input of Governors in your oversight of 
this most crucial issue.
    I would also like to express my gratitude to Secretary Tom Ridge of 
the Department of Homeland Security, who has worked tirelessly to 
assist my colleagues and myself in meeting the challenges of governing 
in the aftermath of the September 11 attacks. It is miraculous to see 
the homeland security apparatus that has sprung up under Secretary 
Ridge's leadership in the short time since he answered President Bush's 
call to service. As a former Governor, he is keenly aware of the 
difficulties we face balancing fiscal pressures with our overriding 
commitment to the public safety. As a former Congressman, he 
understands the responsibility this body has to demand results for the 
taxpayer's money. This combination makes Secretary Ridge the right man 
for a very difficult job. We are all grateful for his vision and 
leadership and salute the Secretary, and the dedicated men and women 
who serve in the Department, for their success in preventing subsequent 
terrorist incidents.
    With everything that has happened since September 11, it is 
sometimes easy to forget that we are still in the early stages of 
defining the homeland security mission. Much remains to be done in both 
the public and private sectors. Therefore, it is appropriate that 
Congress assess the lessons learned to date, ensure that there is 
consensus at every level of government on both the degree of progress 
made and the most critical next steps, and establish a framework for 
future actions and funding. I commend you and the members of this 
Committee for the commitment you have made to this task.
    Similarly, I want to express my appreciation for the steps that 
Congress and the Bush Administration have taken, just since my visit 
earlier this year to testify on this subject before the Senate 
Committee on Governmental Affairs, to make our citizens safer and our 
nation stronger.
    In Massachusetts, and throughout the nation, we have overseen the 
distribution of nearly $10 billion in federal homeland security-related 
funds for federal fiscal year 2003. Your decision to funnel the vast 
majority of that money through state government has helped to ensure 
that we avoid duplication, maximize efficiency, prevent gaps in first 
responder coverage and address the most significant threats and 
vulnerabilities that we face statewide. As you know, each state, even 
each Congressional district, has unique needs and capabilities that 
would make direct appropriations to cities and towns an extremely 
cumbersome process. Moreover, Governors believe that attempting to do 
so would be detrimental to our ongoing, coordinated efforts to secure 
the homeland.
    In return for the trust you have placed in us to distribute federal 
funds appropriately, Governors have taken great pains to ensure that 
the requirements placed on states by Congress have been met. While the 
45-day window for passing the most recent round of federal funding 
through to local authorities has not expired for all states, all 
evidence indicates that those for whom it has expired have exceeded the 
minimum 80 percent pass-through and done so within the time allotted. 
This while facing logistical hurdles ranging from procurement 
restrictions to establishing a means for the electronic submission of 
grant proposals.
    In spite of these challenges, states have been remarkably 
innovative in their grant-making efforts, with an eye towards creating 
the most coordinated, interoperable homeland security network possible. 
Several, including Massachusetts, have brought together the various 
branches of the public safety community, as well as neighboring 
municipalities, for the first time in memory to gather a truly 
comprehensive picture of homeland security needs and to address them in 
a holistic, coordinated fashion. And the cooperation has not stopped at 
the border. In my region, the Northeast Regional Homeland Security 
Agreement will unify planning and sharing of resources across 10 
states, while strengthening the information sharing process and 
creating an inventory of resources and assets available to be shared 
across borders. There are similar examples throughout the country.
    Recently, Governor Ruth Ann Minner of Delaware and I were asked by 
the National Governors Association to serve as ``co-lead Governors'' on 
Homeland Security issues. In this role, we will work with our nation's 
Governors to develop recommendations and consensus positions on a 
number of the key issues under discussion in this arena. Our goal is to 
provide a single point of contact for the Congress. As a first step, we 
have conducted a survey of our fellow Governors to determine their 
priorities. Three issues stood out as overwhelmingly important to 
Governors, and they will serve as the centerpiece of my testimony 
today. These are:
    <bullet> Investing resources based on comprehensive and integrated 
state-wide plans
    <bullet> Maximizing the investment in intelligence gathering and 
analysis
    <bullet> Working with the Department of Homeland Security to 
develop guidelines for states to follow in the prevention of and 
response to terrorist attacks
    First, we believe it is critical that homeland security funding and 
resources be applied against comprehensive and integrated state-wide 
plans. Frankly, this is the only way that our nation's citizens can be 
assured that we are getting the maximum impact from the billions of 
dollars we are investing annually in Homeland Security. You have all 
heard the anecdotes that are beginning to circulate--of communities 
side-by-side that purchase incompatible radio equipment and cannot when 
responding to multi-jurisdictional emergencies. Or of the rural 
community that I understand requested homeland security funds for a new 
fire truck, despite the fact that they had neither roads on which to 
operate it nor a building in which to house it. Unfortunately, if we 
who are responsible for overseeing the expenditure of homeland security 
funding are not careful, those stories will become legend. The reality 
is that almost every state and community in this country is in fiscal 
crisis this year yet, like the federal government, we are all choosing 
to provide the necessary funding and resources for homeland security. 
But, recognizing how tight dollars are, I believe you will find that 
all Governors and municipal officials are eager to ensure that we get 
at least a dollar's return in additional security for every dollar we 
spend. And the most critical step to maximizing our resources is 
developing integrated statewide plans and channeling virtually all 
homeland security funding through these plans.
    The National Strategy for Homeland Security, signed by President 
Bush on July 16, 2002 articulates a comprehensive vision for the common 
defense of the nation. The nation's Governors are very supportive of 
the strategy because they recognize that to effectively combat 
terrorism in this country requires a fully collaborative partnership 
between federal, state and local governments. However, for these plans 
to truly be effective, they must not simply be a compilation of 
individual plans as a package. We need to bring all jurisdictions 
together to develop an integrated plan for public safety--one that 
maximizes the resources on hand and provides a detailed framework for 
training, operations and equipment.
    As most of you know, I was the CEO of the 2002 Salt Lake Olympic 
Games, which has been described by many as a model for an integrated, 
comprehensive public safety plan. Although there are aspects of that 
planning process that would be hard to duplicate in all fifty states, 
it nevertheless it provides a strong example of the difference between 
a coordinated plan and an integrated plan.
    Interestingly, the decision for Salt Lake to pursue a fully 
integrated federal, state, local and private sector security plan for 
the Games was a result of the security planning process for the Atlanta 
Olympics. The Atlanta planning process followed what was until then a 
traditional format. Each of the affected jurisdictions--federal, state 
and local--developed individual plans for the activities within their 
jurisdiction--law enforcement, fire, and emergency response. Then those 
plans were meshed into a single whole. Unfortunately, when the plans 
were pulled together, they didn't mesh well. Several areas had more 
resources than needed, others were significantly under-funded. Some 
areas were deemed the responsibility of more than one entity, while 
other areas were deemed to be no one's responsibility and had been 
completely left out. Although there was a security plan, in reality it 
was a hodge-podge of individual plans and there were clearly holes.
    The federal government stepped in to assist in filling these holes 
and to help merge the plans and operations of the individual 
jurisdictions. But, the lessons learned from this experience were 
relayed in detail to the Salt Lake team and we decided to try something 
new. Federal, state and local governments, together with the private 
sector Olympic Committee, all agreed to come together and jointly 
develop one plan and use the planning process to work out 
jurisdictional issues, assess resources available, and agree on a plan 
that would use the minimum in additional resources to achieve the 
maximum in security.
    And that's what we did. Over a period of several years, an 
integrated plan was developed that identified all the activities to be 
done and determined the resources necessary to carry out those 
activities. In many cases it was the federal government that provided 
guidance on the standards we were to use--much as we look to the 
Department of Homeland Security today to provide guidance to states on 
best practices and standards for securing critical infrastructure.
    Then, perhaps most uniquely, the participants identified all the 
resources each had to put towards carrying out the missions. Federal, 
state, and local government all participated in this, as did the 
private sector. Air and ground resources were pooled, communications 
resources were pooled, IT and dispatch resources were pooled, and 
manpower was pooled. And when we had thus maximized the use of our 
existing resources, we were able to clearly articulate to the federal 
government where we were short in resources and exactly what we needed 
those resources to do. Moreover, those resource shortfalls were part of 
an integrated security plan that the federal government--specifically 
the Secret Service, FBI and FEMA--had helped to develop.
    During the months that the Olympic Security Plan was operational, 
this integrated planning effort led to an integrated and well-
coordinated training program. It also led to more efficient procurement 
of resources since we were able to use bulk purchasing to the maximum 
extent possible. And, as you could predict, it then led to a well-
integrated operational effort during the Games. Federal, state and 
local public safety operations merged seamlessly and cooperated closely 
with the private operations that we were running at SLOC. Not only was 
this approach operationally superior, but in the world of public safety 
and counter-terrorism where the enemy can exploit any gap, the tight-
knit coordination and integration among all security and public safety 
operations was essential.
    In my role as Governor of Massachusetts, I have sought to apply the 
lessons learned during the Olympic Games to the implementation of our 
statewide homeland security program. We have begun the process of 
developing an integrated plan by starting with a ``bottoms up'' 
assessment of our state of preparedness and an inventory of our 
resources. My Secretary of Public Safety, Ed Flynn, has led this effort 
and it has been conducted across federal, state, and local governments 
and the private sector. While the assessment has identified a number of 
positive actions taken to date, it has also identified a number of 
deficiencies, which must be addressed across our Commonwealth.
    Massachusetts established a model process for awarding federal 
homeland security dollars. We were the first state to apply for this 
money, the first to receive it, and the first to deliver it to 
municipalities. We combined the FFY03 and FFY03 Supplemental funding 
into one grant process. This allowed us to award $21.5 million nearly a 
month before the 45-day deadline. And we established a competitive 
grant process, encouraging communities to work across jurisdictions and 
across disciplines to put together comprehensive plans for homeland 
security.
    Rather than award money based solely on population or location, 
Massachusetts evaluated applicants on four criteria:
        1. Degree of Threat
                <bullet> Population
                <bullet> Critical infrastructure
        2. Degree of Readiness
                <bullet> Emergency management plan
                <bullet> Training
        3. Degree of Cooperation
                <bullet> Mutual aid agreement(s)
                <bullet> Training across jurisdictions
        4. Reasonableness of Request
                <bullet> Grant request must complement existing 
                equipment
                <bullet> Equipment must not be duplicative
    Every proposal was evaluated and scored by three readers. 
Massachusetts called on grant readers from throughout the region with 
various areas of expertise to score the proposals and, at our request, 
a federal Department of Homeland Security representative participated 
in the review process, answering technical questions.
    One of the most encouraging ramifications of this experience in 
Massachusetts has been the way in which a statewide process that 
required coordination and communication of its disparate public safety 
community has brought this community together. With the ``carrot'' of 
federal homeland security dollars, states can make this type of 
interagency, multi-jurisdictional cooperation the rule, rather than the 
exception.
    I share this experience to show you how seriously my fellow 
Governors and I take the charge you have given us to spend homeland 
security funds in the most efficacious way possible. Each of my 
colleagues recognizes that working with local governments and the 
federal government in the development of a comprehensive state-wide 
plan is a matter of the utmost importance to the people of their state. 
And it is through those plans that we can ensure that homeland security 
funding is spent only for activities that will have the maximum impact, 
resulting in the highest level of public safety.
    For that reason, I, along with the other Governors, believe that 
Homeland Security funding should flow to the states and should be 
distributed then in accordance with the state-wide plans. It is only by 
flowing funding through the funnel of the state that we can ensure that 
funds are spent effectively and efficiently. Programs and funding that 
bypass the states could easily be spent outside the state-wide plan and 
lead to gaps in coverage, incompatible equipment including 
communications systems, and wasteful duplication. The National Strategy 
calls for states to develop a plan that sets priorities based on 
assessment and vulnerability analysis. Therefore it is only logical 
that funds should be distributed in accordance with those priorities.
    Second, we need to maximize our nation's investment in information 
and intelligence sharing. One of the primary ways that state and local 
governments can work to prevent future acts of terrorism is to ensure 
the effective flow of information among federal, state and local law 
enforcement. In the months that preceded the attacks of 9/11, agencies 
were unable to draw a larger pattern out of disparate bits of 
information contained in separate databases about the activities of 
terrorists involved in the attack. We will never know whether better 
data sharing would have helped thwart the attacks. But we do know that 
terrorists often use traditional crimes such as drug trafficking, money 
laundering, bank robbery and illegal weapons trafficking to offset the 
costs and further support their political/terrorist objectives.
    In fact, the first indication that a terrorist cell is operating 
within the United States may be behavior discovered during an 
investigation by state or local police, following the report of 
suspicious circumstances or some type of criminal event. Whether the 
focus in on stopping drug trafficking or preventing an act of 
terrorism, rapidly collecting and disseminating solid information about 
the people who commit crimes and where they commit them is key.
    Yet most police, public health entities, parole officers and courts 
are operating with 20-year old technology. Even though high-speed 
digital technology is currently available, many police officers still 
wait long periods to receive basic information about a vehicle or 
person they stop. Days or weeks may pass before criminal warrants find 
their way into state databases, leaving dangerous criminals on the 
street and police without this information. Judges might sentence 
offenders with outdated information regarding their criminal history 
records. Investigators in one jurisdiction may be unaware that 
information regarding an individual under investigation exists in a 
neighboring jurisdiction.
    This must change if we are to be successful in preventing future 
acts of terrorism.
    Another challenge we face in information sharing is ensuring that 
there is an appropriate exchange of information between the federal 
government and the state and local officials who may be able to use 
that information. We recognize that there is information critical to 
the nation's security that must be guarded at the highest levels. Yet, 
as mentioned above, it is often state and local officials and 
responders who can facilitate the apprehension of potential terrorists 
if they have the necessary information.
    Additionally, state and local officials need information if they 
are to match their response to an increased threat level appropriately 
to the increased risk. For example, if our nation moves to Threat Level 
Orange in response to increased risks, then state and local officials 
need to know if that increased risk is contained to only one region of 
the country or one type of critical infrastructure. With that 
information, they can develop an appropriate response. Without it, they 
have no choice but to take actions that assume that the highest level 
of threat may be aimed at their region and at the various types of 
critical infrastructure in their state. The point here is that every 
community cannot be equally vulnerable at the same time to terrorism. 
If information is available, the sharing of that information will 
ensure that money and resources are not wasted in a region of the 
country that does not have an increased threat.
    One way to address the intelligence-sharing dilemma is for security 
clearances to be standardized and reciprocal between agencies and 
levels of government--perhaps within the Department of Homeland 
Security. There is also a need to process federal security clearances 
more expeditiously. Some states have waited over a year for vital 
security clearances for their law enforcement agents. The bottom line 
is that a more effective liaison must be established between the FBI, 
CIA, DHS and other national security agencies if we are to maximize our 
nation's investment in intelligence.
    The third challenge is to work with the Department of Homeland 
Security and other relevant federal agencies to establish minimum 
guidelines and standards for state homeland security practices. In its 
recent report on the state of emergency responder preparedness, the 
Council on Foreign Relations suggested that Congress, ``require the 
Department of Homeland Security (DHS) and the Department of Health and 
Human Services (HHS) to work with state and local agencies and 
officials as well as emergency responder professional associations to 
establish clearly defined standards and guidelines for emergency 
preparedness. These standards must be sufficiently flexible to allow 
local officials to set priorities based on their needs, provided that 
they reach nationally determined preparedness levels within a fixed 
time period.''
    I strongly support this recommendation. In the wake of September 
11, states have each taken and are continuing to take the interim steps 
necessary to ensure that our citizens are protected. In many cases, 
these actions may not be the most cost efficient, such as temporary use 
of the National Guard to secure airports while a permanent security 
force is hired and trained. Yet, the priority of each Governor has been 
to take the immediate actions necessary to ensure the safety of our 
citizens.
    Even as we take these short-term steps, each of the states, through 
the comprehensive state-wide planning process, is developing a 
blueprint for homeland security. Among the many areas to be addressed 
in those plans are:
    <bullet> A focus on prevention: what actions and investments can we 
take to ensure that critical information is shared, analyzed and acted 
upon in a timely manner? What are the appropriate steps for securing 
our nation's critical infrastructure including the 362 ports 
nationwide, approximately 168,000 public drinking water systems, 
600,000 miles of sanitary sewers, and 200,000 miles of storm sewers? 
Likewise, how can we protect our food supply from the threat of 
terrorist attack and build the capacity to trace potential food borne 
illness outbreaks, food contamination and infectious animal diseases?
    <bullet> Incident management: Clarification of roles, ensuring that 
training throughout the state is uniform and coordinated, developing 
necessary reciprocal agreements both within the state and with 
surrounding states, ensuring the interoperability of equipment, and 
ensuring the capacity for disease surveillance and detection exists 
throughout the state.
    <bullet> Response: Identification of the training and equipment 
needed by first responders, plans for escalating response beyond the 
local jurisdiction to surrounding jurisdictions, state-wide and then 
beyond the state borders, and identification of medical supplies and 
personnel and facilities necessary to treat victims of a public health 
emergency.
    These are questions that are best answered in coordination with 
federal officials who have decades of experience in countering and, for 
the most part, preventing terrorism. Governors believe that the 
Department of Homeland Security should take the lead in sharing this 
expertise with state and local officials charged daily with the 
protection of potential terrorist targets. Moreover, the Department 
should encourage states to share their own unique homeland security 
experiences and, with the assistance of federal experts, make 
information on how to duplicate anti-terror ``successes'' available to 
all state and local officials.
    The Department should also increase its role in serving as a 
clearinghouse for technology and products related to homeland security. 
Currently, each state's homeland security advisor is inundated with 
vendors' products addressing the diverse issues of security. In the 
tight timeframe within which federal dollars must be turned around by 
the states, evaluating the competing claims of these vendors can be 
extremely difficult. And the technical and or scientific expertise 
needed to separate the truly innovative and effective products from the 
snake oil is often lacking. A ``Consumer Reports''-like department that 
can test products, interview purchasers/users and disseminate that 
information would be tremendously helpful.
    I am encouraged to see that language necessary to meet these goals 
was included in Senator Collins' first responder legislation, and has 
been spoken of positively by the leadership of this committee. 
Similarly, I applaud the efforts in both the House and Senate to 
streamline and simplify the myriad grants available to state and local 
governments for homeland security-related purposes. Establishing ``one-
stop shopping'' for these funds is another means by which the federal 
government can consolidate and make available valuable information to 
states.
    In conclusion, Mr. Chairman, we can best ensure that we are able to 
invest wisely in homeland security in this nation if funding is 
distributed through the states based on a comprehensive and integrated 
state-wide plan, if information sharing and intelligence sharing 
between federal, state and local governments is maximized, and if state 
and local officials have access to the most up-to-date information 
available in the field. Mr. Chairman, the nation's Governors understand 
the difficult task and the challenges ahead in protecting the homeland, 
and stand ready to work in partnership with the President and Congress 
to meet these challenges.

    Chairman Cox. I want to thank you very much for your 
testimony. I am going to ask two questions. I am going to put 
them together, so one you can tell me first whether it is 
accurate or not, and then provide some analysis.
    A recent article in USA Today pointed out instances in 
which local agencies received such a large influx of money that 
they weren't sure how to spend it. One of the examples they 
cited was the Massachusetts Steamship Authority, which runs the 
ferries in and out of Martha's Vineyard. One of the Vineyard 
harbors was awarded $900,000, to upgrade port security last 
week.
    The Oak Bluffs harbor master, Todd Alexander, told the 
Vineyard Gazette newspaper, and this was recounted in USA 
Today, ``Quite honestly, I don't know what we are going to do, 
but you don't turn down grant money.''
    Now, this is probably an example in the extreme of grant 
that is not based on threat assessment. But are you familiar 
with this example? And is it anomalous, or is there more to 
this story?
    Second, I really do want to delve into the conclusion of 
your testimony, which focused on your experience at the 
Olympics with intelligence analysis and your suggestion that we 
solve the problem of how we coordinate the roles of everyone 
from FBI, CIA and the other 15 intelligence agencies here in 
Washington to the state police in Massachusetts, the local 
police and so on. You posed very good questions about whose job 
and whose role that should be.
    I wonder if you could give us your best answers to those 
questions? How would you suggest, as we write legislation 
designed to sort this out, that we go about it?
    Governor Romney. Let me begin with your question about Oak 
Bluffs. I had guessed that that might attract the attention of 
at least one of the members of this committee, and was likewise 
chagrined to hear of a substantial grant being given to a 
community and the community didn't know how it was going to 
spend it, but was happy to receive it.
    This is in fact a prime example of what happens when the 
federal government makes appropriations directly to communities 
rather than having the appropriations and the grant money go 
through a state, which can evaluate the grant requests of 
various communities. This was a grant that was made by GSA. It 
was made to the port authority on the island of Martha's 
Vineyard. The funds went to Oak Bluffs. And this was not part 
of our state-wide plan.
    Let me contrast that with the funds that have come from the 
federal appropriation. Those funds which we were to distribute 
within 45 days and actually distributed the money 10 days 
before that 35 days were up, were appropriated, I believe, in a 
way that was correct.
    We began by contacting all of the communities in the state, 
some 351, and said we will be happy to respond to grant 
requests that come from you. However, we will respond based 
upon the risk assessment that we make of your community and the 
particular assets and areas that may need protection. And 
number two, we will look at your request and favor those 
requests which are submitted on a regional basis.
    So if you are the community of Everett or the city of 
Boston or the community of Belmont, we will pay much more 
attention to your request if it is combined with other 
communities around you. So if you are asking, for instance, for 
a mobile command center, if you are just a single town or city, 
you are not likely to get that funding. But if you combine with 
five or six other communities around you and work together on a 
regional basis, we will make that appropriation.
    We received 117 grant requests. We approved 34 of them. 
These requests were read by individuals from three different 
states. We wanted to draw on homeland security expertise beyond 
our borders. So we read those different requests and then sent 
those monies out, ranking all of the requests based upon 
whether they were a regional request and also what the degree 
of threat was.
    I contrast that again with a process where the federal 
government is trying to send out money, and, in the case of my 
state, the 351 different communities, without understanding our 
state-wide plan, without understanding the needs of our 
respective communities.
    We have even had a circumstance where one entity made an 
application to the federal government for funding, received an 
approval, and the same entity had another division which made 
an appropriation request to the state for a different piece of 
equipment. And within the same entity, these pieces of 
equipment were noncompatible. They didn't know that they were 
each making these requests. And the federal government, TSA, 
had approved one; we were about to approve the other.
    And I just think it is critical to make sure that funding 
goes through a single source. And whether it is a single office 
in the federal government, and I would prefer a single office 
at the state level, to assure that the money going out is going 
out according to threat assessments and need and a regional 
plan and a comprehensive, holistic plan having been developed. 
So that is part one with regard to Oak Bluffs.
    Secondly, with regards to intelligence, I am very much of 
the view that this becomes the critical element of our 
protection, which is not just the police officer standing at 
the base of the bridge, and we know that can be a deterrent, 
but also the extensive intelligence work to assess what threats 
are coming into our country, where people might be located, 
what actions are being carried, and letting people know that we 
are watching them.
    In that regard, I believe the responsibility of the local 
police department is to gather information, to gather data, to 
gather information, to report crimes. I believe the state 
police departments should then take that information and 
compare it, look for trends, look for information that suggests 
perhaps a criminal activity that might have a foreign source, 
or a broader organized criminal activity, which may have 
associated with it a terrorist route.
    But that information is taken by the state police and given 
to federal authorities, namely the FBI. And the FBI carries out 
the intelligence work to assess the degree of risk and perhaps 
begin a process of monitoring or surveillance associated with a 
particular type of criminal activity.
    These different stages could be defined in a different way. 
But what I do know is that right now we have cities, the state 
and the federal government all working in the area of 
intelligence, but without a clear understanding of who is doing 
what.
    One of the most frequent questions I am asked by local law 
enforcement is what are we supposed to be doing with regards to 
homeland security? What are we supposed to be gathering? If I 
receive information about someone who I think is at risk, what 
am I supposed to with that? Who do I give it to? Is it the 
state police? Is it the FBI?
    Then they wonder if they gave it to the FBI, what was ever 
done with it. Did someone follow up? Was there any processing 
of that information?
    This kind of intelligence effort, I believe, needs to be 
thoroughly defined. And we as a state, and I am sure our local 
communities will march to the direction we receive, to make 
sure that we are carrying out a complete intelligence effort 
and that we are leaving no gaps.
    But I am afraid right now that a lot of information is 
being gathered, but it isn't being analyzed and turned into 
true intelligence. And those kind of gaps could result in the, 
if you will, very serious consequences if we don't thoroughly 
evaluate them.
    Chairman Cox. Thank you very much for those responses.
    The gentleman from Texas.
    Mr. Turner. Governor, thank you again for your presence and 
your testimony today.
    The issue you just raised is one that we have certainly 
heard about before. I think it is very important that we get 
the information out to local law enforcement officials, so that 
when they do have information, they do know where it is 
supposed to go. It is my understanding that the Department of 
Homeland Security is the place to and from which that 
information is supposed to flow, and where it should be is 
integrated, analyzed and utilized.
    So, currently, I believe that when local law enforcement is 
passing on some information, they are probably giving it to the 
FBI, which is fine, too.
    But I also think the Department of Homeland Security has 
the responsibility to carry out the function that you describe 
as missing today.
    The other issue I am interested in hearing your comments 
on, from the perspective of the governors, is what kind of 
information flow on intelligence do you see flowing from the 
federal level down to the states and local government?
    If you respond to that, I have a follow-up on that too I 
want to ask you about.
    Governor Romney. Well, I appreciate the information we do 
receive.
    We have a joint terrorism task force, a task force that 
meets under the direction of the U.S. attorney in Boston, and 
we receive, I believe, timely, effective information of 
potential threats.
    On the basis of that information which is, by the way, far 
more detailed than just code orange or code yellow?we receive 
pretty specific information?we make assessments of what actions 
we should take to protect critical infrastructure, or to 
protect individuals.
    And so the code orange is a helpful indication of the level 
of threat, but we go beyond that code information to actually 
have direct communication with the Department of Homeland 
Security, or the FBI, or other federal sources.
    And on the basis of that further information, we decide 
what specific action we should take, and in some cases, for 
instance at the beginning of the Iraq war, the threats were of 
such significance that we took very extensive precautions.
    However, the more recent code orange assessment was far 
more generic, and we took less aggressive action. And that is 
something which we assess on a basis of having direct 
communications with Washington.
    So I would tell you we receive a good deal of information. 
I hope we do a good job in getting out to our localities. We 
have a system in our state called our Saturn System, where we 
communicate to the respective first responders the information 
we think will help them in being able to respond or prevent 
attack on any critical asset or group of individuals.
    Mr. Turner. I notice in your written testimony that you 
suggest we should modify the current system we have on levels 
of alert, that it should be more specific, aimed at regions, 
and aimed at critical infrastructure as appropriate.
    I certainly agree with you on that.
    I think some refinement is necessary. Many of the states 
and localities have complained to us that if their response is 
the same every time we move up a notch, it costs them hundreds 
of thousands of dollars that may not be need to spent in their 
particular locale or in a particular category of critical 
infrastructure.
    Every time you apply for federal money, if I understand the 
process, you are required to submit a state plan. When you 
prepared your state plan, or when your other counterparts 
prepared their state plan, what kind of intelligence 
information did you have at that time upon which to base your 
state plan?
    Governor Romney. Well, first of all, I think the term 
``state plan'' is reminiscent of the Atlanta Olympics.
    And I can't speak for all states--I believe our state is 
doing an excellent job, but in many respects our state plan 
consists of some broad principles which we apply at the state 
level, but it is also a collection of what is being done on a 
local level. It is taken together and put a notebook and said, 
here, here is all of our local plans collected, now it is a 
state plan, as opposed to a thoroughly prepared, comprehensive, 
directed, holistic plan being created on a statewide basis.
    And that is something which we are attempting to do, but 
has not been completed yet to my satisfaction, not to the level 
that I saw at the Olympics, and I think we have more effort in 
that regard.
    With regards to the intelligence input, I would say that I 
think more than knowing a specific threat that we are to 
respond to for our state plan, it would be helpful to know 
what, if you will, guidelines or template might be suggested to 
us as to the level of capability, the level of homeland 
security resources to be applied to our various assets.
    And by that I mean one would look at a state and say, What 
is the degree of risk in a particular state? And given that 
risk, let us look at different types of assets, from a nuclear 
power plant to a drinking water source to a bridge to a tunnel 
to a major facility of another kind. And the Department of 
Homeland Security could provide us guidelines as to the level 
of protection that might be appropriate for one of those 
assets, given a certain level of risk, meaning green, yellow, 
orange, red and so forth.
    That kind of template would allow us to determine exactly 
what the level of resources might be for our entire state.
    Today, we make that assessment ourselves. Today, we decide 
if we have a tunnel, what we think we should do to protect that 
tunnel. My guess is that Delaware does something different, New 
York does something different, California does something else.
    What is the appropriate level? What is the level which is 
being done in other states? What is the best practice?
    And the communication of best practices which would allow 
us to set, if you will, state by state templates, guidelines, I 
think would be helpful for us to be able to create truly 
holistic, comprehensive statewide plans.
    That is something which the Department of Homeland Security 
is racing to do. That is something which we are doing on a 
state basis as well as we can. And it is something which if we 
don't make enough progress, why I think the National Governors 
Association should undertake on its own, but I think the 
Department of Homeland Security is going to lead the way.
    Mr. Turner. Governor, I really appreciate the clarity of 
your answers, because it points to a problem about which the 
chairman and I have been very concerned. I think you are 
absolutely right: The comprehensive, holistic plan that you 
require has to be based on some intelligence information that 
you do not have at present.
    We are purporting to pass out money today based on state 
plans that I think in many ways we must all acknowledge are 
inadequate to the task of making critical decisions.
    Before you can have a comprehensive plan--you are 
absolutely right--we have got to have the Department of 
Homeland Security set out standards and best practices from 
which you can then move to develop a plan using those best 
practices.
    Therefore, you have pointed out two very critical areas, 
and I really appreciate your testimony.
    Chairman Cox. Mr. Weldon.
    Mr. Weldon. Thank you, Mr. Chairman.
    Thank you, Governor, for being here.
    Governor, I have read through your statement and can tell 
you I agree with many of the assessments you provided, and 
especially be concerned about the fact that our governors do 
not yet have the same classified status that members of 
Congress have, which I think that is a shortcoming which needs 
to be corrected.
    I would say that I do have some problems with your heavy 
focus on the state level.
    As you know, the bulk of the first responder community in 
this country in fire service is not paid and is not a part of 
government. The bulk of the 32,000 fire departments in this 
country are volunteer. It is nice to tell them they should do 
something, it is nice to tell them they have bought 
incompatible radio equipment. But by and large, the bulk of 
those departments bought it with money they raised from chicken 
dinners and from tag days.
    And it is nice now for the federal government to come in 
and say, or the state government, Well, you should have done 
this, when the states weren't providing, in most cases, a dime 
of money over the past 200 years.
    I know. I was a volunteer fire chief and represent all the 
firefighters of this country. And having been a mayor and a 
county commissioner, I get upset that states sometimes think 
they have all the answers when the history of this country for 
200 years, the 32,000 departments have handled every disaster 
we have had, from that large warehouse fire in your state, 
where six firefighters were killed, to hazmat incidents, 
hurricanes, floods.
    And in my opinion, our problem has been we have been 
listening too much to the bureaucrats at the top, and not 
enough to the first responder on the bottom, who have been out 
there where the rubber meets the road.
    When our first training programs were set up to provide 
training for homeland security and terrorism before 9/11, the 
fire service wasn't even brought in. We hired consultants at 
the government level, paid bureaucrats in Washington who are 
supposedly going to tell these firefighters how to do what they 
have been for 200 years. It was a slap in their face.
    And what I think, and what I know, is that the program that 
we established in Congress who, for the first time, give 
dollars on a competitive basis to the fire and EMS departments 
in the country has been the most successful program we have 
operated.
    In your testimony you single out a community that you 
understand bought a fire truck without roads. I am not aware of 
that. I wish you would tell me that. Because the GAO has done 
an investigation of our grants program. It is the most 
successful program we have in Washington. In fact, your state, 
many of your departments have paid 10 percent or 30 percent of 
the match to get those funds.
    The concern that local departments have--and I have been in 
every state, I have been in your state many times meeting with 
your fire leaders--is that states siphon off money for 
bureaucracy. They take money the federal government provides 
and they build fiefdoms, they build consultants.
    And I know. I was a county commissioner. They develop 
people who can tell others how to do the job. But when that 
alarm sounds, when that incident occurs, don't look for those 
bureaucrats, because that first apparatus driver had better 
have the equipment to respond.
    And when you talk about communication systems, and you talk 
about communities side by side purchasing incompatible radio 
equipment, that was a problem in the past, because those local 
fire departments had to raise the money on their own to buy 
that equipment.
    What I don't see here, and what is the number one issue for 
the emergency responders, is for the government to take on the 
communications industry and set aside the frequency spectrum 
allocation to allow for a standardized communication system. 
They want to go to high band frequency. They want to go to a 
standardized system. But because the networks will not give up 
the frequency spectrum that they were supposed to give up 
within two years, the fire service and the emergency responders 
and law enforcement community can't get access to that 
frequency spectrum. That is not an issue they can control. That 
is an issue that this Congress and the federal government needs 
to respond to--recommendations made by the Pitswack advisory 
committee in 1995.
    Now the strength of the emotion in my response is aimed at 
you personally. It is aimed at frustration of being here 17 
years, leading the effort for our firefighters, and now all of 
a sudden having groups like the Council on Foreign Relations 
coming in and saying what we have been saying for 17 years. I 
mean, where was Senator Rudman when he was here? Where was his 
effort to support the first responders? This wasn't a new need 
after 9/11. This was something that should have been addressed 
decades ago.
    So my only concern is that the focus does not just have to 
be at the state level. I agree with statewide planning. 
California has an excellent model. But they buy the fire 
apparatus, not the local fire department. And they bring them 
in when they need them for disasters.
    I agree with that coordination. But I also think we have to 
be sensitive to the people who are paying the bill. And in most 
cases in America, those bills are still being paid by local 
volunteers, who raise the money through chicken dinners and tag 
days.
    Thank you.
    Governor Romney. Let me make just a comment with regards to 
a couple of points that you made, many of which I agree with.
    I would note that in the case of the grants that are being 
made to our state, of federal funds, that these grants are 
going to out communities based upon regional plans, and those 
plans are being proposed by fire departments, police 
departments, EMS departments, that combine together to look for 
specific resources that will help them on a regional basis.
    And I will use as an example the fact that we have an LNG 
tanker and LNG plant that comes into the Boston Harbor on a 
weekly basis. The fire equipment necessary to contain a fire of 
LNG is not the kind of equipment that any one fire department 
would propose to acquire. The community came together and said, 
We as a group of communities want to purchase a particular type 
of equipment. It is aquatic-based equipment. And that is 
something we feel is appropriate to support and provide money 
for.
    And so that is an example of the local fire departments 
coming together and requesting equipment that allows them to 
deal with the threat that no one of them alone would find as an 
appropriate appropriation or allocation.
    I note as well that with regards to the state share, that 
Congress, I think, wisely in the most recent appropriation, has 
said that 80 percent of the funds should go directly to the 
localities and the locality needs. And 20 percent would stay at 
the state level.
    In our case, we have made the full distribution within 
actually 35 days for the localities. And we have not kept the 
full 20 percent, even though we have a substantial state police 
effort that could just end National Guard effort that could 
justify maintaining some of those funds.
    We have distributed a larger amount than the 80 percent 
required by Congress. I think Congress continues to have the 
right, and I would suggest the appropriate direction in 
suggesting which portion of the funds go to local first 
responders.
    Chairman Cox. I thank the gentleman.
    Governor Romney, I understand that you have a hard 3:00 
deadline. We also have members who want to ask questions. And 
we also have our own hard 3:45 deadline, because of the joint 
session of Congress. What I would like to do is take one more 
question from the minority side, and then let you go, if you 
would be willing to stay for that even though we are past the 
appointed time.
    Who seeks recognition?
    The gentleman from Massachusetts?
    Mr. Markey. I will yield to the other gentleman from 
Massachusetts.
    Chairman Cox. The gentleman from Massachusetts, Mr. Frank, 
is recognized.
    Mr. Markey. --if you don't mind and it would just be to 
make the point, before I yield, that although it is not 
immediately obvious from the hinterlands, people like Curt 
Weldon and I have always been in silent agreement on these 
issues and pride working together over the years to provide 
funding.
    But we do wind up in communities like Everett, where the 
LNG facility is actually located in my district where the mayor 
has had to lay off 20 of the 105 firemen in that community, 
even though it does present maybe the greatest terrorist 
target.
    Let me yield to the other--
    Mr. Frank. Actually, I think, Governor, in another part of 
the state in which I represent, there is a proposal now pending 
for another LNG plant, as you know, in Fall River. And 
obviously, people there are concerned, probably because of this 
resource remained, and we hope to be able to work with you.
    I have one specific question and one more general one. You 
mentioned an entity in Massachusetts which had applied for two 
different pieces of equipment, one through the federal 
government and one through the state, and it applied for 
inconsistent equipment. What entity was that?
    Governor Romney. That was Massport.
    Mr. Frank. They had applied and had--were in the process of 
trying to get two inconsistent pieces of equipment?
    Governor Romney. My understanding is that the harbor 
portion of Massport had requested equipment and received a 
grant from TSA, and that the airport side of Massport applied 
to the state--
    Mr. Frank. Governor, since all of us were about to fly into 
that place, I am probably sorry I asked you.
    Governor Romney. We are still very safe, thank you.
    And that actually the--
    Mr. Frank. It wouldn't help to go by boat.
    Governor Romney. The state system required the chief 
executive of Massport to sign the grant request. And in signing 
that grant request, he identified the fact that they were 
coming from--that two areas were asking for equipment to 
happened to not be compatible.
    Mr. Frank. The more general question: You had this 
responsibility to take all these applications and parcel them 
out, and I am partly concerned about the adequacy of research, 
and particularly since, as my colleagues pointed out, on the 
one hand because of other issues we are seeing first responders 
laid off--police, fire, emergency drivers.
    And obviously, there aren't two separate entities out 
there, one group that deals with homeland security and two, the 
regulars. That is the same group. And there is a tradeoff 
there.
    My question is as you got this list of projects, what 
percentage of the worthy projects are you able to fund? I mean 
answer the question, the adequacy of resources. Did you find 
yourself in the position of having to say no to projects which 
you thought had merit, even though, obviously, you funded the 
ones you thought were best?
    But how many projects that were well thought out and met a 
real need did we have to turn down because there was scarcity 
of resources?
    Governor Romney. We did not come away thinking that we had 
left major holes, and that many of the grant requests were 
worthy, but we just didn't have enough money to fund them. We 
thought that a number of the grant requests were not 
appropriate, because they were municipally based, rather than 
regionally based, and encouraged the communities to go back and 
prepare a more regionally based plan.
    I would tell you, however, that there is clear indication 
that there is more need than dollars. And you are not going to 
hear any governor say anything different, nor will you have any 
mayor or selectman say anything different than that.
    We were dismayed that not all of our communities put in 
grant requests. There were regions of the state. In the time 
frame during which we were directed to distribute funds, 45 
days, some communities couldn't get a grant in quickly enough.
    And so your community, the city of Fall River, for 
instance, made no application for funding. New Bedford did put 
in a substantial request, and we provided funding to New 
Bedford and many other portions of your district, but Fall 
River didn't.
    We recognize that, gosh, this is a major hole, so we put 
some money aside, and said, We are going to send this to Fall 
River, even though they didn't have a request in, but it is 
suggested--
    Mr. Frank. I appreciate it. I didn't mean to be parochial. 
That is for the Appropriations--
    [Laughter.]
    But I thank you for acknowledging that there is this 
problem, there is more need than dollars.
    Governor Romney. Yes, there is more need than dollars.
    And let me draw that back to the original point that I made 
about needing to have a sense of where we are trying to go, and 
a national and state-wide plan. And I say we have had many 
requests for hazmat teams and for mobile command centers. Well, 
how many hazmat teams does a state need? We have a population 
of 6.5 million people. Should we have 1 per 100,000? One per 
million? One per 50,000? Every community will ask for hazmat 
dollars, even our smallest communities. But I am not sure what 
the standard is we are trying to get to.
    Are we looking for hazmat capability at level A, B or C on 
a national basis? We can make great grants to provide hazmat 
equipment. But I don't know what the level we are trying to 
reach might be.
    Likewise with regard to protecting our LNG tankers.
    What is the level of protection we need? I know that with 
regards to nuclear plants that over the years the Nuclear 
Regulatory Commission has said this is the outline of what 
effective security is for a nuclear plant.
    That level of guidance may well be appropriate for key 
assets, key to critical assets. Medical response key assets. 
Gatherings of large individuals.
    What is the standard we are shooting for? Once we know what 
the standard is, we will know how much money we need?
    Mr. Frank. I will just close up. On the medical, I just 
said this before. We got problems in the emergency rooms on 
Friday night from people hitting each other over the head and 
running each other over, much less somebody being a terrorist. 
So, there is clearly a greater need.
    I would just say I appreciate your acknowledging that there 
is more need than dollars. I just think that the next time 
people think that what we need are fewer government dollars, 
they ought to understand that that would widen the gap between 
need and dollars.
    Thank you, Mr. Chairman.
    Chairman Cox. Thank you, Governor Romney, for your 
excellent help to this committee and to our work and for your 
excellent support for our national effort in homeland security.
    I hope you have a secure flight.
    Governor Romney. Thank you, Mr. Chairman.
    Chairman Cox. We now welcome our next panel. And as the 
members of the next panel are being seated, I will briefly 
introduce them.
    Jamie Metzl is the senior fellow and coordinator for 
Homeland Security Programs at the Council on Foreign Relations.
    Captain Michael Grossman, commander of the Emergency 
Operations Bureau, Los Angeles County Sheriff's Department, is 
also the head of the multiagency Terrorism Early Warning Group.
    Chief George Jaramillo is here from the Orange County 
Sheriff's Department. And I am especially grateful because, of 
course, I hail from Orange County myself, for your appearance 
here today.
    Ray Kiernan is the Fire Commissioner and Chief of the New 
Rochelle Fire Department, a member of the Westchester Career 
Fire Chiefs and Northeast Fire Consortium. He has been 
described as a fireman's fire chief.
    And we are very happy to have all four of you. We 
appreciate your outstanding prepared testimony, which we have 
already included as part of the record. And we invite you each 
to summarize your testimony.
    We will begin with you, Mr. Metzl. Thank you.

STATEMENT OF MR. JAMIE METZL, SENIOR FELLOW AND COORDINATOR FOR 
   HOMELAND SECURITY PROGRAMS, COUNCIL ON FOREIGN RELATIONS;

    Mr. Metzl. Mr. Chairman, Congressman Turner, members of the 
committee, particularly my congresswomen from my home town of 
Kansas City, Karen McCarthy, thank you very much for inviting 
me to testify before you today. It is an honor for me to be 
here.
    I serve as project director for what Congressman Weldon 
described as the Johnny-Come-Lately Council on Foreign 
Relations when we arrived here. And as you all, I believe, 
know, we issued a report two weeks ago entitled Emergency 
Responders: Drastically Underfunded, Dangerously Unprepared.
    Our task force is chaired by Senator Rudman. And members of 
our task force include many prominent Republicans and 
Democrats, including George Schultz, William Webster, former 
chairman of the Joint Chiefs of Staff, former chief of staff of 
the Army, three Nobel Laureates and others.
    The task force met with emergency responders around the 
country and with emergency responder professional associations 
and others. And based on our extensive contacts and the 
totality of our investigation, we came to one very simple 
conclusion. Almost two years after September 11, America is not 
sufficiently prepared for another terrorist attack.
    This is not to say that we are not at all prepared. It is 
not to say that we are not in some ways better prepared than we 
were on September 11. But the gap is too large to be 
acceptable. As Senator Rudman has said, the question is not if 
the next attack will place, but rather when it will take place.
    There are many elements of emergency preparedness and many 
elements of the overall homeland security picture. And we 
focused on only one, which was emergency responders.
    What we found shocked us. And our report, as I believe all 
of you have, outlines gives some examples of what is missing. 
That fire departments across the country have only enough 
radios to equip on average half the firefighters on a shift. 
There is not adequate breathing apparatus. The public health 
system in the United States is in a terrible, dangerous state 
of disarray.
    In sum, we found that emergency responders across the 
country don't have the equipment and the training they need to 
respond safely and effectively to a terrorist attack.
    So we worked with these emergency responders and 
professional associations to try to quantify what was missing. 
And we were very clear that what we were looking for wasn't a 
wish list.
    We carefully reviewed the data that we collected, and we 
believe we were very, very conservative in our estimates. But 
based on our calculations, we believe that America will fall 
roughly $98.4 billion short of meeting critical emergency 
responder needs over the next five years if current funding 
levels are maintained.
    Getting to this level would require as much as tripling 
overall expenditures. And if one believes that this is a 
federal responsibility, it would require quintupling federal 
expenditures.
    While these critical needs must be addressed immediately, 
our task force is the first to admit, and we did so in our 
report, there our figures for meeting them are preliminary, and 
that the United States must develop a more sophisticated 
requirements generation process, as Governor Romney and others 
have mentioned.
    Unless we both get the necessary resources to America's 
frontline responders and create a policy framework for spending 
these funds most efficiently, the American taxpayer will not 
receive the best return on our investment in homeland security, 
and, more importantly, we will not be as safe as we must 
become.
    If we allocate the funds without getting the policy issues 
right, or if we get the policy issues right without allocating 
the funds, we will not be prepared. America must do both.
    The centerpiece of this policy framework, as has been 
discussed, must be national preparedness standards. We need to 
define what preparedness is, so we can know where we are and 
build a road map for getting from where we are to where we need 
to be. Otherwise, we are going to be throwing money at the 
problem and our response capabilities will be uneven.
    We need a requirements generation process, similar to what 
the military has, where we identify the threats, we determine 
the capabilities necessary for responding to those threats, and 
then we generate requirements for reaching those capability 
levels.
    If we don't have that, money is going to be wasted, and at 
the end five years we will have spent a lot of money. We will 
have some extra capabilities out there, but it will be 
dangerously uneven.
    As you, Mr. Chairman, and others have mentioned, we need to 
change the formula grant process. Right now, we are 
distributing money in a very inefficient way.
    And even if the federal government fixes the federal 
formula, we need to make sure that the states fix their 
formula. It makes no sense that if there is a federal formula 
based on threat and risk, which we don't have yet, but I 
imagine that at some point we will, but then states are evenly 
distributing finds based on the old system, we are not going to 
be as safe as we need to be: We are going to be diluting funds 
to the point of being wasted.
    Another issue is that we need to encourage and incentivize 
long-term thinking among cities and states. If cities and 
states receive funds and don't have confidence that additional 
funds will consistently be coming, there is an incentive to 
spend on short-term needs, rather than doing what needs to be 
required, what needs to be done, which may include adding 
staff, it may include maintenance, it may include long-term 
training. And we need to incentivize that type of long-term 
thinking.
    This committee has spent a lot of time discussing the 
congressional oversight issue, and I imagine that you would all 
agree with the recommendation in our report that the 
congressional oversight process needs to be streamlined, and we 
believe, as, Mr. Chairman, I know you do, that this committee 
would be transformed into a standing committee with a formal, 
leading role in the authorization of emergency responder 
expenditures.
    And I would agree with your proposal that this committee 
should have legislative jurisdiction over the Department of 
Homeland Security, and oversight jurisdiction over federal 
homeland security activities.
    Finally, federal and state grants systems are duplicative 
and need to be streamlined. As Congressman Turner and Senator 
Collins and others have mentioned, we need to have a system for 
one-stop shopping.
    It makes no sense that states often have to submit as many 
as five separate homeland security plans covering the same 
ground. We need to make this process easier, not harder, so we 
can have the kind of coordination that Governor Romney has 
mentioned.
    America's local emergency responders will always be the 
first to confront a terrorist incident, and will play the 
central role in managing its immediate consequences. Their 
efforts in the first minutes and hours following an attack will 
be critical to saving lives, reestablishing order and 
preventing mass panic.
    America wouldn't think of sending our military to fight a 
war overseas without proper equipment and training, but that is 
what we do every day with our emergency responders across the 
country, who are the front lines of our war on terror.
    One of the many lessons we learned from?
    Chairman Cox. Mr. Metzl, I just need to ask you to 
summarize.
    Mr. Metzl. Last sentence. Last long, run-on sentence. One 
of the lessons we learned from September 11 is that our 
emergency responders will rush to the scene of a terrorist 
incident, even if they don't have the tools to respond 
effectively. We cannot afford for them and for us to have that 
be the case. We need to get them the equipment and the training 
they need; otherwise, we will all be in danger.
    Thank you very much, Mr. Chairman.
    [The statement of Mr. Metzl follows:]

                PREPARED STATEMENT OF MR. JAMIE F. METZL

    Mr. Chairman and Members of the Committee, Thank you for inviting 
me to testify before you today. It is an honor for me to be here.
    I serve as Project Director of the Council on Foreign Relations 
Independent task Force on Emergency Responders, where I work with our 
Chairman, Senator Warren Rudman and Senior Advisor Richard Clarke. The 
non-partisan task force has brought together leading Americans from 
diverse political and professional backgrounds to examine whether or 
not America is sufficiently prepared for another terrorist attack. Our 
members include former Secretary of State George Shultz, former CIA and 
FBI Director William Webster, the former Chairman of the Joint Chiefs 
of Staff, the former Chief of Staff of the Army, three Nobel laureates, 
and other senior experts of a similar stature.
    The Task Force met with local emergency responders across the 
country, worked closely with emergency responder professional 
associations, and partnered on spending-related issues with two of the 
national leading budgetary analysis organizations, the Center for 
Strategic and Budgetary Assessment and the Concord Coalition. Based on 
these extensive contacts and the totality of our investigation, we came 
to one very simple conclusion: almost two years after 9/11, America is 
not sufficiently prepared for another terrorist attack.
    This is not to say that we are not better prepared to address some 
aspects of the terrorist threat or that the government has done nothing 
since 9/11. In our report entitled Emergency Responders: Drastically 
Underfunded, Dangerously Unprepared which we released on June 30, the 
Task Force credited the Bush administration, Congress, governors, and 
mayors with taking important steps since the September 11 attacks to 
respond to the risk of catastrophic terrorism. It is to say, however, 
that we are not as prepared as we must be given the magnitude of the 
threat we face and the tremendous repercussions of another attack. As 
Senator Rudman has said, the question is not if the next attack will 
take place, but rather when it will take place.
    Somewhere in the world, perhaps even here in America, terrorists 
are now likely planning attacks on the United States. At the same time, 
America's diplomats, military officers, intelligence agents, policemen, 
firefighters, and others are working frantically to prevent and prepare 
for such an attack. These two groups of people are in a race with each 
other that our side cannot afford to lose.
    An effective homeland security strategy must therefore play both 
offense and defense. We must attack terrorists wherever they are, cut 
off their financing, and destroy their networks. We must also address 
global causes of instability that provide fertile soil for the 
recruitment of terrorists. At home, we must protect our critical 
infrastructure, keep our airways, ports, and highways safe, and make 
sure that our local policemen, firefighters, health workers and others 
have the equipment and the training they need to prevent and respond to 
terrorist attacks. Although there are many aspects of homeland security 
that need to be reviewed, our examination focused on the preparedness 
of emergency responders. What we found shocked us.
    We found that on average, fire departments across the country have 
only enough radios to equip half the firefighters on a shift, and 
breathing apparatuses for only one third. We found that a mere ten 
percent of fire departments in the United States have the personnel and 
equipment to respond to a building collapse. We found that police 
departments in cities across the country do not have the protective 
gear to safely secure a site following an attack with weapons of mass 
destruction. We found that public health labs in most states still lack 
basic equipment and expertise to adequately respond to a chemical or 
biological attack, and that 75 percent of state laboratories report 
being overwhelmed by too many testing requests. In sum, we found that 
emergency responders across the country don't have the equipment and 
the training they need to respond safely and effectively to a terrorist 
attack.
    In order to quantify this preparedness gap, we worked with each 
emergency responder community--fire, police, emergency medical, public 
health, emergency management, and others--and asked them to determine 
and cost out the minimum essential capabilities they required to be 
prepared for a terrorist attack. We were very clear that we were not 
asking for a wish list, and we carefully reviewed the data we collected 
from these sources. We were extremely conservative in our estimates.
    The high funding estimate provided to us by the fire community, for 
example, was roughly $85 billion over five years. The number that we 
ended up using for our calculation, however, was $37 billion. The high 
estimate for establishing interoperable communications was $18 billion 
over five years, but we used the much lower number of $6.8 billion 
based on the more economical funding model of the Capital Wireless 
Integration Network project in the greater DC area. Most significantly, 
because police organizations were unable to provide us with any 
reliable estimates of their need, we decided not to include a police 
figure rather than include a number we would not be able to support. 
Finally, we assumed that every dollar allocated for emergency 
responders would be used to address terrorism preparedness needs, not 
for more generic purposes.
    Based on our calculations, we found that America will fall roughly 
$98.4 billion short of meeting critical emergency responder needs over 
the next five years if current federal, state, and local funding levels 
are maintained. According to our estimates, combined federal, state, 
and local expenditures would need to be as much as tripled over the 
next five years to address this unmet need. As you know, states across 
the country are in their worst financial situation in decades, and 
there are many who argue that terrorism is a national security threat 
which, according to the constitution, is primarily a responsibility of 
the federal government. Covering the $98.4 billion funding shortfall 
using federal funds alone, therefore, would require a five-fold 
increase from the current level of $5.4 billion per year to an annual 
federal expenditure of $25.1 billion.
    Among other things, these additional funds are badly needed to 
enhance federal and local urban search and rescue capabilities; to 
foster interoperable communications systems for emergency responders 
across the country; to enhance public health preparedness by 
strengthening laboratories and disease tracking capabilities, and 
training public health professionals for biological, chemical, and 
radiological events; to provide basic protective gear and WMD 
remediation equipment to firefighters; to support an extensive series 
of national exercises that would allow responders to improve on 
response techniques; to enhance emergency agricultural and veterinary 
capabilities for response to a potential national food supply attack; 
and to help develop surge capacity in the nation's hospitals to help 
them better prepare for a WMD attack.
    While these critical needs must be addressed immediately, our Task 
Force is the first to admit that our figures for meeting them are 
preliminary and that the Unites States must develop a more 
sophisticated requirements-generation process. Unless we both get the 
necessary resources to America's front-line emergency responders and 
create a policy framework for spending these funds most efficiently, 
the American taxpayer will not receive the best return on our 
investments in homeland security and, more importantly, we will not be 
as safe as we must become. If we allocate the funds without getting the 
policy issues right, or if we get the policy issues right without 
allocating the funds, we will not be prepared. America must do both.
    The centerpiece of this policy framework must be national 
preparedness standards. America needs national standards that define 
what emergency preparedness means. Every city of a given size should 
have a minimum set of capabilities--they should be able to respond to a 
biological event of a certain size, decontaminate a certain number of 
people, etc. But because America has not defined what preparedness is, 
we have no way of knowing systematically how prepared we are or what we 
need to do to get from where we are now to where we need to be. 
Standards should not become the basis for federal micromanaging of 
state and local governments, but they must establish minimum essential 
capabilities that every jurisdiction of a certain size should either 
have or have access to. Within these parameters, state and local 
governments should be allowed flexibility for determining priorities 
and allocating resources so long as national standards are met over a 
fixed period of time.
    National standards can then provide the basis for a requirements 
process similar to that employed by the United States military. Threats 
must be identified, capabilities for addressing threats determined, and 
requirements generated for establishing or otherwise gaining access to 
necessary capabilities. Effective coordination and planning between and 
among all levels of government and emergency responders on the ground 
must then transform new capabilities into a national preparedness 
system.
    A second element in getting the policy framework right is fixing 
the system for allocating scarce emergency responder funds. It makes no 
sense to distribute funds based primarily on a divide the spoils 
formula. As Secretary Ridge and others have correctly asserted, we need 
to think less about politics and more about our vulnerabilities and the 
hierarchy of threats facing us when making decisions about distributing 
funds. This must be the case on both the federal and on the state 
level. Otherwise, our funds will be diluted to the point of being 
wasted. America must smartly allocate our limited resources to address 
our greatest vulnerabilities.
    In addition, the erratic nature of federal funding has created 
perverse incentives for short-term thinking among cities and states, 
and this process must be fixed. State and local governments can't make 
long-term decisions to address their needs without confidence that 
increased federal funding will be sustained. Multi-year funding is 
extremely difficult in our political system, even for military 
appropriations, but we must work to create confidence among states and 
localities that funding levels will be maintained over time in order to 
establish proper incentives for systematic, long-term planning.
    You are the experts on the issue of Congressional oversight, and I 
am therefore hesitant to make recommendations regarding how Congress 
might be organized. Nevertheless, the Task Force found that an 
estimated 88 committees and subcommittees of the House and Senate have 
a hand in the unwieldy homeland security authorization and 
appropriations process. For this reason, the Task Force has recommended 
that the authorization and appropriations processes must be focused and 
streamlined both to ensure necessary oversight and to better guarantee 
that funds will be appropriated and distributed with necessary speed. 
The Task Force believes that Congress should have a lead committee, or 
an effective joint committee, to shape overall policy in order to 
prevent the fragmentation of oversight and the distortion of 
appropriations. As I'm sure you know, the Task Force has recommended 
that the House of Representatives transform this committee into a 
standing committee and give it a formal, leading role in the 
authorization of all emergency responder expenditures.
    Finally, the federal and state grants systems are duplicative and 
unnecessarily complicated and serve to slow the funding process for no 
real benefit. The current inflexible structure of homeland security 
funding, along with shifting federal requirements and increased amounts 
of paperwork, place unnecessary burdens on state and local governments. 
For example, some states have been required to submit as many as five 
homeland security plans in order to qualify for federal assistance. 
While a balance should be maintained between the need for the rapid 
allocation of emergency preparedness funds and the maintenance of 
appropriate oversight to ensure that such funds are well spent, the 
present danger is too great to allow for business as usual. As part of 
an overall response to this larger structural problem, we believe that 
Congress should require DHS to work with other federal agencies to 
streamline homeland security grant programs in a way that reduces 
unnecessary duplication and establishes coordinated ``one-stop 
shopping'' for state and local authorities seeking grant funds.
    America's local emergency responders will always be the first to 
confront a terrorist incident and will play the central role in 
managing its immediate consequences. Their efforts in the first minutes 
and hours following an attack will be critical to saving lives, 
reestablishing order, and preventing mass panic. America would not 
think of sending our military to fight a war overseas without proper 
equipment and training. It is therefore unconscionable that we are not 
providing those same necessities to the local emergency responders who 
are also on the front lines of the war on terror.
    One of the many things we learned from the 9/11 attacks is that our 
local emergency responders will rush to the scene of a terrorist 
incident, even if they do not have everything they will need once they 
get there. In New York, this led to inexcusable deaths. The United 
States has both a responsibility and a critical need to provide our 
emergency responders with the equipment, training, and other necessary 
resources to do their jobs safely and effectively. Otherwise, we will 
all be in unnecessary danger. America must do better.
    Thank you very much. I look forward to answering any questions you 
may have.

    Chairman Cox. Thank you. Mr. Chief Jaramillo.

 STATEMENT OF MR. GEORGE JARAMILLO, ASSISTANT SHERIFF, ORANGE 
            COUNTY, CALIFORNIA SHERIFF'S DEPARTMENT

    Mr. Jaramillo. Thank you, Mr. Chairman. On behalf of 
Sheriff Mike Carona and the men and women of the Orange County 
Sheriff's Department, as well as the people from your district, 
we appreciate the opportunity to be heard on this.
    We have submitted, as you know, a more extensive written 
testimony, but I want to give you a brief overview of a few 
things that are paramountly important within that testimony.
    Orange County is the second-most populous county in 
California. It has got 3 million residents, and 38 million 
yearly visitors. If it were a stand-alone economy, it would be 
the 31st largest economy in the world.
    Unfortunately, it is a major target, also. It has 
Disneyland, John Wayne Airport, Anaheim Stadium and San Onofre 
nuclear generating station. We've got a great partnership with 
Los Angeles County.
    We work very well with Sheriff Lee Baca and the men and 
women of his department. In fact, California's divided into 
mutual aid response regions.
    Orange County and LA County combine to form Region 1, which 
is the largest response region in America. Region 1 has 122 
cities, exceeds 50,000 emergency responders, and has a 13 
million resident population.
    These two counties alone represent 40 percent of 
California's first responders, and 36 percent of California's 
total population. Together, both counties have, with 
multidisciplines in mind, (law, fire and health,) jointly 
participated in several full-scale training scenarios and 
tabletop exercises, as well as developed compatible plans for 
regional emergency response.
    This training establishes relationships, tests equipment, 
communications and command and control capabilities. Beyond 
this, we have established our terrorism early warning groups.
    Both in L.A. and Orange County, these countywide 
multidisciplinary units established before 9/11 bring together 
law enforcement, fire, health, special districts, public 
utilities and private sector businesses to share and 
disseminate information and intelligence.
    We coordinate daily with Los Angeles and other counties. 
These TEWGs, as we call them, monitor trends and potentials to 
prevent and mitigate any potential terrorist threat to Orange 
and L.A. counties, all of Region 1.
    The TEWG managea a list of sites critical to the county's 
infrastructure, and maintains response plans based on the 
threat assessment and current trends.
    Additionally, private sector terrorism response groups, and 
Region 1 homeland security advisory councils, bring together 
business and industry leaders from Orange and L.A. counties on 
a regular basis, to advise both sheriffs, to network and, most 
importantly, to identify what resources they could share if 
something happens and the government isn't there to provide.
    That is the good news. Here is what is needed. First, we 
need to get dollars from the federal government, we need to get 
them fast. As an example, Orange County has been supposedly 
awarded nearly $12 million in grant funding. To date, we have 
seen about $875,000 of those dollars.
    Second, our war on terror is labor intensive. We have to 
understand that.
    It requires additional personnel. Grant monies should be 
more flexible and reflect our needs and provide us the ability 
to pay for those all-too important personnel costs associated 
with our terrorism early warning groups and our joint terrorism 
task force.
    In fact, as we assign personnel to take care of homeland 
security issues, we have to backfill personnel in our original 
missions. This creates the cost of taking care of the homeland 
security problem, as well as the additional, generally time-
and-a-half, costs of taking care of our original police 
mission.
    Number three, grant funds should be focused on the local 
agency, whichever that is, whether it is state, county, or more 
local, city, on the local agency primarily charged with the 
responsibility for fighting terrorism.
    This entity, not necessarily state, not necessarily county, 
perhaps even at a city level, should be primarily responsible 
for a cohesive plan, producing a cohesive plan, that will work 
in that region or that area.
    It makes sense then that it is within this entity that the 
funds should be trickled down.
    Last, there must be more work done to ensure interagency 
intelligence sharing.
    While establishing a joint task force staffed with federal 
and local law enforcement officers is a great concept, 
information sharing only works if the local officers are given 
access to information which they can bring back to the agencies 
they represent.
    Mr. Chairman, we stand committed, as you in Congress do, to 
fight terrorism.
    We now must ensure that all our people stand ready to do 
so.
    Thank you.
    [The statement of Mr. Jaramillo follows:]

               PREPARED STATEMENT OF MR. GEORGE JARAMILLO

    Chairman Cox, members of the committee, thank you for the 
opportunity to testify before you today on behalf of the Orange County 
Sheriff's Department, and our Sheriff, Mike Carona. This is the second 
opportunity within a short timeframe that our agency has been invited 
to testify before the Select Committee, and I would like to acknowledge 
extra gratitude for the hard work and due diligence of Chairman Cox and 
all of the Committee members.
    It was the request of Chairman Cox that my remarks today focus on 
the inter-jurisdictional intelligence sharing efforts and working 
relationship that has been put in place between Orange County and our 
neighbors to the north, Los Angeles County.
    First, I would like to provide you with some background on Orange 
County, which is the second most populous county in California with 3 
million residents and over 38 million visitors annually. Orange County 
is the 31st largest economy in the world. The County includes 34 
incorporated cities, 42 miles of coastline, 3 harbors, numerous 
internationally known tourist attractions, technical/manufacturing 
locations, shopping malls including the third largest shopping mall in 
the nation, John Wayne Airport, various venues hosting national and 
international entertainment and sporting events, and large convention 
centers. Over 16,500 private and commercial yachts valued over $2 
billion are moored within the three harbors of Orange County.
    The Orange County Sheriff's Department has taken a primary role in 
preparedness for acts of terrorism within our communities. With over 
9,000 emergency responders in Orange County from law, fire, and health 
disciplines, the response capabilities of these dedicated men and women 
are, in my opinion, unsurpassed. Over 160 participants from local 
agencies respond to the County Emergency Operations Center when 
activated for the San Onofre Nuclear Generating Station annual graded 
exercise. Several tabletop and full-scale exercises are conducted each 
year to prepare our emergency responders for natural disasters and acts 
of terrorism. Utilizing Unified Command and Standardized Emergency 
Management principals, the County of Orange is on the leading edge in 
disaster preparedness and mitigation. This concept is also used in the 
fight against terrorism. Several terrorism specific exercises have been 
conducted and more are planned, to combat terrorism and its threat.
    Prior to September 11, 2001 the Orange County Sheriff's Department 
saw the need to establish a county wide multidisciplinary unit to 
enhance communication and interoperability efforts within the 114 local 
government entities of Orange County. The Terrorism Early Warning Group 
(TEWG) was formed to bring law enforcement, fire, health, special 
districts, public utilities, and private sector businesses together to 
share and disseminate information and intelligence. This TEWG monitors 
trends and potentials to prevent and mitigate any possible terrorist 
threat to the Orange County Operational Area. Open source data and 
information received by Terrorism Liaison Officers from local agencies 
is collected, verified, and disseminated to local, State, and Federal 
agencies. The TEWG interlinks with their TEWG counterparts in Los 
Angeles County and other adjacent counties to provide a synthetic 
analysis of local intelligence in the quest to deter terrorists. The 
TEWG has developed relationships with literally hundreds of these 
agencies including private businesses throughout the nation. This 
communication link is vital during crisis management of an actual event 
and during ongoing public awareness and prevention efforts. TEWG 
maintains liaison officers within the FBI though our Joint Terrorism 
Task Force and the State through the California Anti Terrorism 
Information Center where all information is shared.
    The TEWG manages a list of sites critical to the county 
infrastructure and maintains response plans based on the threat 
assessment and current terrorist trends. With over 85 percent of Orange 
County's infrastructure owned by private business, the Private Sector 
Terrorism Response Group plays an essential role in the fight against 
terrorism. Business leaders and security personnel meet on a bimonthly 
basis to discuss current trends and potentials. These companies, many 
in the Fortune 500, are potential targets or have assets available 
during consequence management in a terrorist attack.
    This year the TEWG received 77 terrorism related incidents in 
Orange County. Of these, 50 advisories have been disseminated to 
agencies both inside and outside of Orange County. The TEWG has 
provided presentations to hotel and hospital security directors, 
created dispatch advisory cards, and liaisons with the Homeland 
Security Advisory Counsel.
    The Orange County Operational Area is utilizing standardized 800 
mhzradio communication equipment for interoperability between agencies. 
Every agency in the Operational Area has access to this system. 
Additionally, the Orange County Sheriff's Department and Los Angeles 
County Sheriff's Office are working to provide interoperability in 
communications for deputies working in bordering cities with these two 
counties.
    The Orange County Operational Area has established training and 
equipment committees to research and recommend standardized Personal 
Protective Equipment for emergency responders. These items were also 
compared with Los Angeles County Sheriff's Office for compatibility as 
these two counties are in the same Mutual Aid response region.
    An Emergency Responder Preparations Plan was developed by emergency 
responders from all public safety agencies to address equipment, 
training, planning, and exercise needs for the Operational Area. We 
have been able to utilize funds received through both fiscal year 2002 
Office for Domestic Preparedness Grants and fiscal year 2003 Homeland 
Security Grants to assist us in meeting the goals set out in this plan.
    California is divided into Mutual Aid Response Regions. Region One 
includes Orange and Los Angeles County. Our two counties, particularly 
law, fire, and health agencies, have participated in several full scale 
training scenarios and tabletop exercises to establish a rapport and 
test equipment, training and communication compatibility. The Sheriff's 
agencies share a particular bond with Emergency Management. The Mutual 
Aid Response Plans and methods of operation are similar where deputies 
responding across county lines are familiar with general training and 
tactics.
    The Terrorism Early Warning Groups in Orange and Los Angeles 
Counties are nearly identical in concept and design. These units 
converse on a daily basis sharing information and intelligence. Members 
of these teams regularly attend training seminars, exercises, and 
conventions together. As a result of the efforts of the effectiveness 
of the Terrorism Early Warning Group, agencies from California, 
Washington, Nevada, New York, Oklahoma, and Nebraska have formed 
TEWG's. The information sharing and dissemination at a local level 
continues to grow. Monthly conference calls have been established with 
several southland agencies where information is shared regarding 
terrorism issues.
    Orange and Los Angeles County's have developed a Homeland Security 
Advisory Council. These key leaders within the business community from 
Orange and Los Angeles County meet on a bimonthly basis. The goal is to 
provide direct interaction among senior executives from industry and 
the community with law enforcement and public safety services in 
support of Homeland Security, civil protection, and critical 
infrastructure protection. This creates a bridge for the business 
community to have a direct contact with subject matter experts for 
counsel and advice in support of planning, training, and activation.
    The Orange County Sheriff's Department is the local agency charged 
with the protection of our county's harbors and interacts diligently 
with local lifeguards, State Fish and Game, United States Coast Guard, 
and Seal Beach Naval Weapons Station staff towards this goal. The high 
visibility approach by the Harbor Patrol has hardened the protection 
against acts of terrorism within our harbors and along the coastline of 
Orange County.
    With the close proximity to the Long Beach and Los Angeles Harbors, 
the Orange County Sheriff's Harbor Patrol trains closely with and works 
alongside Los Angeles County, State and Federal agencies assigned to 
protect their ports.
    The challenge before all of us in local law enforcement is a 
daunting one. The heightened level of vigilance and preparedness has 
created a need to prioritize and reorganize, and to focus and redeploy 
tremendous amount of personnel and resources towards the important task 
of Homeland Security.
    I can tell you that we have been, and continue to do everything 
within our means to make Orange County as safe as possible from the 
threat of terrorism. Additionally, we are doing everything in our power 
to ensure that should something occur with our county, we are prepared 
to quickly respond and deal with that crisis. We stand ready to assist 
our neighboring jurisdictions, including Los Angeles County, should the 
need arise.
    Orange County has been awarded nearly $12 million in grant funding, 
although as of today we have only received $875,000 of these funds. 
This grant funding has been for equipment, planning, training and 
exercises for the 9,000 first responders, 35 law, fire and health 
agencies representing this large county. Los Angeles County has been 
awarded over $35 million with an additional $45 million to the City of 
Los Angeles. Taken together, both counties comprise over 40 percent of 
California's emergency responders, and over 36 percent of California's 
population.
    Some recommendations that I would make to the Select Committee, 
relative to grant funding, are as follows. First, I would re-examine 
the process that is being used to fund these grants, and move federal 
dollars out to the states, and to the local government level charged 
with combating terrorism. I cannot emphasize enough how the lengthy 
process is creating difficulties for those of us who are First 
Responders to purchase equipment, and to give optimal training and 
exercises to our personnel.
    Equally as important, the grant process should be altered to factor 
in threat assessment, and should be based more on local needs. There 
should also be more flexibility on how local agencies spend grant 
dollars. Each jurisdiction is unique, and the grant process should 
recognize that fact.
    Another suggestion that I would make, relative to grant funding, is 
to allow for some grant monies to be used towards personnel costs. In 
order to plan and provide training and conduct exercises, and to 
conduct local intelligence gathering and work with federal agencies on 
an operational basis, it requires additional personnel. Currently, 
grant funding may not be used to fund additional personnel--and I 
believe that decision should be re-evaluated.
    Grant funds should also be focused on the local jurisdiction that 
is charged with the primary responsibility for fighting terrorism. For 
example, if a county, under grant-distribution guidelines, is required 
to disburse funds to dozens of smaller cities, it becomes a significant 
challenge for the county to retain enough funds for major expenditures 
that benefit the entire Operational Area.
    Finally, I would like to suggest that while we have come a long 
way, more work must be done to ensure the sharing of intelligence data 
between federal and local agencies. While establishing join task forces 
is a great concept, information sharing only works if those 
representing local agencies are given access to information, which they 
can bring back to their agencies.
    In closing, I would like to once again take a moment to thank the 
Congress, and specifically the members of the Homeland Security 
Committee for their diligent and tireless work as we all do everything 
in our power to ensure that the United States is as safe as possible 
from all enemies, foreign and domestic.

    Chairman Cox. Thank you very much.
    Chief Grossman?
    Mr. Grossman. Thank you, sir.

STATEMENT OF MR. MICHAEL GROSSMAN, CAPTAIN, LOS ANGELES COUNTY 
                      SHERIFF'S DEPARTMENT

    Mr. Chairman and members of the committee, I am here 
representing Sheriff Lee Baca from Los Angeles County Sheriff's 
Department, and I will try not to reiterate some of the 
positive things that are being done between the two counties.
    But I will elaborate on some of the things that we are 
doing, and then talk about some of the things where we need 
some assistance.
    The terrorism early warning group that was mentioned was 
developed back in 1996. It is a multiagency, multidisciplinary 
organization made up of fire, law and health, all first 
responders of local, state and federal agencies all working 
together to share information and cooperate with one another in 
making sure that we are prepared to respond to and prepare for 
potential terrorist attacks.
    The terrorism early warning group has been recognized as a 
model for the nation, and through the Memorial Institute for 
the Prevention of Terrorism in Oklahoma City, we are on an 
expansion project to expand that to six other cities.
    And now with the Office of Domestic Preparedness in DHS, 
there are 24 additional cities that we will be expanding that 
too.
    Now, the terrorism early warning group can be designed to 
fit any local needs, whether it is a large area or small area, 
but the major point is that it is all first responders working 
together, as well as all jurisdictions, from local, state and 
federal, truly working together.
    We have members from our own organizations on the joint 
terrorism task force, and we can exchange information back and 
forth. The clearances that a lot of areas are trying to get, we 
have several individuals in our units with clearances, and that 
part is working.
    We do need to improve it, but we are on our way to do that.
    Another thing we established based on a very successful 
program in the South Bay region of Los Angeles County is a 
terrorism liaison officer program. And that is created to 
establish a point of contact for each law enforcement agency in 
the county. It was done within that regional area of Los 
Angeles County.
    We have expanded that to every law enforcement agency in 
the county. That includes railroad police, specialty police, 
the Los Angeles Port Police, and the airport police, as well as 
all the universities.
    So all law enforcement agencies in Los Angeles County have 
a terrorism liaison officer, as do, we have expanded it to 
include fire departments and health agencies. And the same 
concept is going to be replicated in Orange County, with whom 
we work every day.
    My counterpart, Captain Catherine Zurn, at their emergency 
operations unit, we collaborate on these issues frequently.
    The next thing that we have done is Sheriff Carona and 
Sheriff Baca have created the Homeland Security Advisory 
Council, made up of CEOs of major corporations and 
infrastructure in both counties, to connect the private sector 
to what we do, so that we can share information and share 
resources between industry and first responders, in order to 
prepare for the hardening of targets by completing assessments 
of locations and different types of facilities.
    To this end, we recently held a subcommittee meeting with 
the Entertainment Subcommittee. The Entertainment industry is 
one of the targets that has been mentioned in the past. We had 
heads of security for all the different entertainment industry 
locations. And we also had the TLOs from fire and law at this 
meeting so that the local jurisdictions could meet each other. 
When a studio calls for help, these are the guys that are going 
to come help them, so they can meet them and do some planning 
and meet the people ahead of time, as opposed to waiting until 
they have to dial 911.
    We are in the process of setting up a terrorist threat 
assessment center with the Los Angeles Police Department 
primarily, and we will also bring in other agencies in the 
county, a representative from each of the mutual aid areas in 
the county.
    And this will be an intake center and an analysis center 
for all information and all threats. This will bring in the 
public number, the 877 number currently published in Los 
Angeles, will come into this center as will, information from 
the terrorism liaison officers from fire, law and health.
    Fire department goes out on a scene. They will see 
different things than law enforcement sees, and there may be 
vital information that gives us leads and pieces of a bigger 
puzzle to solve, that may indicate, give indications, warnings 
or trends for a type of terrorist threat.
    So we have, basically, all information coming into this 
center and analyzed by analysts from the sheriff's department, 
the FBI, the California Anti-Terrorism Information Center, 
which is the state level, and Los Angeles Police Department. 
And we will be training analysts from the other agencies as 
well.
    One of the things we need assistance with here is some 
financial, but mostly political, support to build a SCIF, a 
secure compartmentalized information facility, so we can 
receive and store classified information at the local level.
    None exists at a local level at this time. We need to have 
that, so that we don't have to either drive across Los Angeles, 
and if you have been there, you know that is a challenge in 
itself, or fly in a helicopter over to Westwood to meet the FBI 
to read the classified documents. We need to be able to receive 
those in our own locations in a secure manner, and share that 
with all of our entities within our county, as well as Orange 
County, and the neighboring counties if a threat is indicated 
for their counties.
    Although we have not yet received a great deal of federal 
resources, we have applied for and expect to get a great deal 
of equipment and training for new equipment to prepare for 
response to terrorism. There are a couple things that we would 
recommend here regarding the issue that the current urban 
security initiatives brings money directly to specific cities.
    In Los Angeles County, we have an organization based on the 
region. And we need to enhance the regional capability, as 
opposed to any individual city. We have a group where we have 
all met from all the entities in the county to divide up the 
money with pretty much the goal of everyone leaves the room 
equally unhappy, because there is never enough money to get all 
the things that you need. We far exceeded our goals in that 
area, but we continue to look for more resources.
    We recommend that future funding be appropriated consistent 
with existing regional procedures, which ensure area-wide 
readiness, as opposed to specific cities that are within the 
region. We would recommend the formation of a task force 
comprised of first responders and emergency managers from 
regions large and small acting as an advisory group to the 
federal government for effective distribution of funds to local 
areas.
    Future grant guidelines should also include provisions for 
additional personnel where costs cannot be borne by local 
governments from existing budgets. We are creating new 
positions, things that local law enforcement and fire agencies 
have not done in the past: things like strategic analysis, as 
opposed to case analysis for crimes, intelligence analysis, and 
that is a whole new field. And so we have to create new 
positions. We have to fund those positions. If we take from 
other areas in the department and try to move people in, we 
don't meet our goals in those areas.
    Chairman Cox. Captain Grossman, I do need to ask you to 
summarize.
    Mr. Grossman. I am done, sir.
    Chairman Cox. That was the shortest summary ever.
    Mr. Grossman. On behalf of Sheriff Baca, I would like to 
thank the committee for this opportunity to represent our 
region in discussing our status and concerns with respect to 
the homeland security issues. Thank you, sir.
    [The statement of Mr. Grossman follows:]

               PREPARED STATEMENT OF MR. MICHAEL GROSSMAN

    My testimony today will address the structure established to 
facilitate inter-jurisdictional coordination and intelligence sharing 
between Los Angeles and Orange Counties, relative to the prevention of, 
and response to terrorism. I will also discuss some recommendations for 
improving the current Federal Homeland Security Grant process to better 
benefit our regional security effort.
    The issue of inter-jurisdictional intelligence sharing between Los 
Angeles and Orange Counties is addressed in several ways. Steps to 
craft a solution for combating terrorism in Los Angeles County were 
initiated in 1996 with the formation of the the Terrorism Early Warning 
(TEW) Group. This is an entity which provides the framework for 
coordination of effort between agencies that heretofore were often 
competitors for scarce resources rather than collaborators. The TEW 
applies a networked approach, integrating law enforcement, fire, 
health, and emergency management agencies to address the intelligence 
needs for terrorism and critical infrastructure protection.
    The TEW integrates a multi-agency (local, state and federal) and 
multi-disciplinary (fire, law and health) network within L.A. County to 
gather, analyze, and share information related to terrorist threats. It 
relies primarily upon open source intelligence (OSINT) for monitoring 
trends and potentials that influence training and doctrinal needs. 
During an actual threat period or attack, the TEW provides consequence 
projection (forecasting) to identify potential courses of action to a 
Unified Command Structure. The TEW maintains daily contact with the 
FBI's Joint Terrorism Task Force (JTTF), the California Anti-Terrorism 
Information Center (CATIC), and other local, state and federal agencies 
dealing with terrorism issues. The TEW has been replicated in Orange 
County with whom we maintain continuous contact on issues of emerging 
threats and related cases. TEWs have also been established in adjacent 
counties and are developing in many cities across the nation as a part 
of the TEW expansion project, supported by the Memorial Institute for 
the Prevention of Terrorism (MIPT) in Oklahoma City.
    In order to directly involve the private sector in this effort, 
Orange County Sheriff Mike Carona and Los Angeles County Sheriff Leroy 
Baca have created the Region I Homeland Security Advisory Council 
(HSAC) to provide direct interaction among senior executives from 
industry and the community with the law enforcement and public safety 
services in support of homeland security, civil protection, and 
critical infrastructure protection. This effort enhances the 
effectiveness of the Los Angeles and Orange County Terrorism Early 
Warning (TEW) Groups by providing a capacity for direct contact with 
subject matter experts for counsel and advice in support of planning, 
training and activation.
    A successful adjunct to the TEW is the Terrorism Liaison Officer 
(TLO) Program. The TLO program is based on a successful model 
implemented in the South Bay area of Los Angeles County, which has been 
expanded to the entire Operational Area (County). Every Sheriff's 
station, law enforcement, fire, and health agency in the County has a 
liaison officer assigned to facilitate networking and information 
sharing within mutual aid areas in the county, and with the TEW. The 
Terrorism Liaison Officer program is also linked with the private 
sector through the Region I Homeland Security Advisory Council. The TLO 
concept is being replicated within Orange County and will further 
enhance the flow of information between the field to the TEWs.
    One proposal I wish to bring to your attention concerns the timely 
sharing of pertinent classified information and the associated 
coordination required between local and federal entities. It is our 
hope to build a Secure Compartmentalized Information Facility (SCIF) 
within the Los Angeles County Emergency Operations Center (CEOC). This 
building currently serves as the hub for emergency operations within 
the Los Angeles Operational Area and as the home site of the Los 
Angeles TEW. An on-site SCIF would greatly enhance our information 
sharing capabilities, therefore we are seeking political and financial 
assistance for this proposal.
    Although we have yet to directly benefit from federal resources, we 
have applied for and are awaiting the receipt of federal funds from the 
Homeland Security Grant Programs. These funds will significantly 
enhance our ability to acquire the necessary resources and equipment 
needed to protect our personnel in the event of a terrorist attack. We 
have successfully worked with all of the first- responder agencies in 
our County to ensure that these funds have been equitably distributed 
to best prepare one of the most target rich and complex regions in the 
Nation.
    There are, however, two specific areas that need revision for these 
funds to be utilized effectively. The first area of concern is the 
current funding stream and the second is the need to fund personnel as 
opposed to simply funding equipment.
    The most recent grants, known as the Urban Area Security 
Initiatives, do not sufficiently benefit the California Counties of Los 
Angeles and Orange ? a region which is home to nearly 13 million 
citizens. The funds from these grants have been allocated directly to 
designated cities, to be expended in cooperation with the contiguous 
counties. While the cities of Los Angeles and Long Beach have special 
needs, there remain 86 additional cities and many square miles of 
unincorporated county area, all with contiguous borders, that make up 
the Los Angeles ?Operational Area.? This dispersal method is counter to 
the process that has been followed in all previous Homeland Security 
Grant Programs, and does not address the overall regional readiness and 
needs requirements. Any attack in the Los Angeles/Orange County area 
would unquestionably require a regional response.
    The second issue is the need for additional personnel dedicated to 
anti and counter-terrorism. When equipment provided in the grants 
arrives at the local level, a critical void still exists for adequate 
personnel to accomplish the many related tasks to combat terrorism at a 
level never before required of local law enforcement. Therefore, I 
recommend the following:
        -- Future funding be appropriated consistent with the existing 
        regional procedures which ensure area-wide readiness
        -- Formation of a task force, comprised of first-responders and 
        emergency managers from various regions across the country, who 
        would act as an advisory group to the Federal Government for 
        the effective distribution of funds to local areas.
        -- Future grant guidelines include provisions for additional 
        personnel where the cost can not be borne by local government's 
        existing budgets.
    On behalf of Los Angeles County Sheriff Leroy D. Baca, I wish to 
thank the Committee for this opportunity to represent our region in 
discussing our status and concerns with respect to Homeland Security 
issues.

    Chairman Cox. Thank you very much.
    Chief and Commissioner Kiernan?

 MR. RAY KIERNAN, FIRE COMMISSIONER AND CHIEF OF NEW ROCHELLE 
 FIRE DEPARTMENT AND MEMBER OF WESTCHESTER CAREER fIRE CHIEFS 
 AND NORTHEAST FIRE CONSORTIUM, NEW ROCHELLE FIRE DEPARTMENT, 
                    NEW ROCHELLE, NEW YORK.

    Mr. Kiernan. I want to thank the chairman and Nita Lowey, 
my congresswoman. And I would like to say hello to Bill 
Pascrell from New Jersey--very helpful on a lot of the things 
we have done in the fire service. And to Chief Weldon, my 
fellow chief in Waukesha, Pennsylvania. Always good to see him.
    But anyway, I plan to submit a formal testimony for the 
record. But under time constraints, I was unable to prepare one 
in advance. I was called last night finally to come to the 
hearings today. And as you know, when people call the fire 
department, we come right away.
    What I would like to do is take you back to--everybody 
always takes the, you know, it is 20 months since the last 
World Trade Center attack and all this. We go back, we say, no, 
it is 10 years; that was the first World Trade Center attack, 
and that is when we should have really woke up.
    We are the guys when all the plans of the sheriffs and all 
the plans of the governors don't work, we are the guys that 
inherit the rest. And I have been the commissioner and the 
chief of department of my department for many years. And it is 
the seventh largest city in New York state, and it borders New 
York City on the north. We were one of the first departments 
into New York City when the Twin Towers were hit. And we, you 
know, did the best job we could and helped out any way we 
could.
    It is very difficult to this day to realize, after seeing 
that horrific site and seeing things that you still couldn't 
believe you saw, that not one dime has reached us. Not a single 
penny has reached us to help our plight at all.
    I am not sure how the money goes out. You know, we always 
say when we hear about the billions in Washington, we say it is 
like the weatherman: There are billions up there, but none of 
it is raining, and it is not reaching the ground. We down in 
the trenches have not seen any money.
    After months of receiving no guidance, no standards, no 
communications from the state or federal authorities, 
firefighters from New Rochelle, Yonkers, Mount Vernon, 
Scarsdale, Eastchester, Fairview, Greenville, Hartsville, White 
Plains and other places came together and created the 
Westchester Career Fire Chiefs Task Force.
    We thought and listened to everything Secretary Ridge said 
what he expected; what he thought a good plan would be: 
regionalization, standardization, communications, 
compatibility. We did all of this because we knew from 
experience when you don't have hose threads, for example, that 
match your neighbors, you can't really function well with him.
    So we approached Congresswoman Lowey and asked her could 
she help us out. Well, she found some money someplace and got 
money to our team. And we were able to train 600 firefighters 
in weapons of mass destruction training: six hundred men with 
not an awful lot of money.
    But the sad thing is once they received the training, they 
went back to their fire departments and had no equipment--no 
equipment. As difficult as it is to believe, after seeing the 
effects of the attacks, we would go back and know what we were 
supposed to have and would end up having a situation where we 
know the guys would respond and go into situations that would 
be virtually suicidal.
    What we proposed was to have--we think the firefighter is 
the answer to the whole situation, post-incident situation.
    Your neighborhood fire houses exist already, your fire 
departments exist already, you are here to talk about setting 
up teams. We know the response time of state and federal teams, 
of 24, 48 hours to be operational. Here the guys down the 
street will be there in four minutes.
    We talk about equipment them so that they could at least 
remove people from harm's way, suits on trucks, training, that 
if there were a sarin gas thing, if there was some sort of a 
biological attack that you knew about, that they could remove 
people from harm's way, and probably mitigate a lot of the 
situations and reduce casualties dramatically.
    If we had to wait for federal teams to arrive, then state 
teams to arrive, it would be forever. And it would be very, 
very probably an unnecessary loss of life.
    So what we are saying here is for some reason the money 
hasn't reached us, for some reason we fell we are the answer 
post-incident. These guys have done a hell of a job preventing 
things from happening. But post-incident, we are the guys.
    We need to be trained in building collapse. All of these 
incidents involved tremendous fires after they occurred. And 
now the next threat, of course, is some sort of a biological or 
chemical or some type of an attack of that nature. And your 
area firefighters have to be equipped to respond into it.
    And what we need is guidance, we need, certainly, money. 
New York State, we have met with--the chiefs of New York State 
have met with those giving out the money, and we just told 
them, We think your plan is nuts. It is just not getting to us. 
I have no idea what we have to do or what to get money, but it 
is not reaching us.
    So any help you can give us in that way, we would be more 
than happy to listen.
    Chairman Cox. Thank you very much, Chief.
    Mr. Kiernan. Thank you.
    Chairman Cox. I want to thank all of our panel. You have 
been exceptionally helpful to us.
    I am going to yield my time to the members because we are 
looking forward to our joint session in just a few minutes with 
Prime Minister Blair.
    Who seeks recognition on our side?
    Mr. Weldon.
    Mr. Weldon. Mr. Chairman, thank you.
    And I thank all of you for coming.
    And I hate to sound cynical at this hearing of an issue 
that has been a passion of mine for my lifetime. But I have to 
be a little cynical.
    First of all, I want to congratulate the California folks, 
because I think they wrote the book on emergency response and 
the way you can integrate agencies.
    I was at Loma Prieta, Northridge, I saw the way you moved 
equipment in. I was at the wild lands fires in the south, the 
way you prepositioned equipment where the state pays for it and 
bring it when it is needed. And you have done an outstanding 
job; you really have kind of wrote the book on how to integrate 
the entire statewide network.
    And Chief, up in New York you have done a great job. You 
convinced your legislature to create the LOWSAT program, which 
helps encourage people to volunteer.
    And you know what frustrates me, Mr. Chairman? We get more 
studies. Now we got Nobel laureates. Nobel laureates are going 
to tell the fire chief how to better protect his town that he 
has been defending and protecting for 200 years. The fire 
service is older than America. But it takes a Nobel laureate to 
come in and tell us what we need.
    Excuse my cynicism.
    But I mean there is nothing new here. I mean, Governor 
Gilmore showed three Gilmore Commission reports before 9/11. If 
you took the time to read the Gilmore Commission reports, as I 
know my good friend Mr. Pascrell did, all the recommendations 
were there. There is nothing new. You get money for the D.C. 
Fire Department, and they can't buy the boots to put on the 
firefighters, because they used the money for some other 
purpose.
    The same thing was true down in Fort Worth, Texas.
    So Mr. Chairman, I get a little upset that the focus on the 
headline grabbers, as opposed to the substance of what the 1.2 
million men and women in this country need who are out there 
serving in 32,000 departments, just as Chief Kiernan mentioned 
here today--Commissioner Kiernan.
    You know, Mr. Chairman, it is really simple. These fellows 
are out there, and these women, doing the job. Eighty-five 
percent of them are volunteers. Why don't we come up with some 
recommendations of how we can encourage more volunteers? Maybe 
a Nobel laureate could address that. Maybe tax policies would 
give you more incentives to get more people to volunteer, since 
85 percent of your members are volunteers. Do you agree, Chief? 
Wouldn't that be helpful?
    Or maybe we could address the issue of why the publicly--
see frequency spectrum allocation issue has not been addressed. 
Maybe because our liberal lawyers don't want to take on the 
industry leaders in the communications sector, who don't want 
to give up the frequency spectrum to let our public safety 
officials have an integrated communication system.
    And why don't our Nobel laureates take on the issue of the 
union versus volunteer? You have it up in New York, Chief, you 
know what I am talking about. The IAFF has got an item on their 
agenda that basically tells paid firefighters they can't 
volunteer when they are off duty. I wonder if that is covered 
in the Council on Foreign Relations report to our 
distinguished--and I am not aiming this at the executive 
director, because it is not his fault.
    It is just the frustration I have, Mr. Chairman. I wouldn't 
be in this job were it not for the fire service. I have been on 
every disaster we have had in the last 15 years, from Loma 
Prieta-Northridge, the Murrah Building bombing in Oklahoma 
City, Hurricane Andrew, Hugo, the floods, all of them. The 
World Trade Center in 1993, the World Trade Center in 2001.
    And what I see coming, keep coming out, are more reports; 
and the L.A. Times has a big headline: Oh, now all of a sudden 
we know what the problem is.
    The problem is the same as it has been for the last 50 
years. We don't listen to the people where the rubber meets the 
road.
    They know what they need. They know what their concerns 
are. And if we pay attention to them, as opposed to some 
grandiose scheme of creating some new mechanism where the 
states are going to tell them how to better do their job, I 
think we would all be a lot better off.
    I wish I would have heard somebody talk about technology 
transfer.
    Mr. Chairman, we had five firefighters die up in Boston 
because--actually, six--because two firefighters, when their 
air supply ran out in the building, no one knew where they 
were. Four other firefighters went in to rescue them. If we 
would had the same equipment that the taxpayers have paid for 
for the Army, GPS equipment with sensor technology to tell us 
the vital signs of the soldiers, those six firefighters might 
be alive today.
    We would have known where they were in the building, and we 
would have known their vital signs when their air ran out.
    Does it take a Nobel laureate to tell us that, Mr. 
Chairman? And if it doesn't, why isn't that in the report? 
Because they are the kinds of things that we could and should 
be doing now.
    The first responder community in this country has been 
slapped around repeatedly by people pretending to have all the 
answers. And damn it, I want the first responders to be 
listened to directly, because they know what they need.
    The same thing applies to the resources for first 
responders. I don't know how we arrived at a figure of $33 
billion. It sounds good because I am for supporting this.
    But I can tell you this. The first year of the grant 
program, which that gentleman down there led the effort on, 
Bill Pascrell, and we worked together, every fire department in 
America could apply. There are 32,000. We had 20,000 fire 
departments apply with 30,000 requests. The total amount of the 
requested money was $3 billion.
    Now where do you get $33 billion from that, Mr. Chairman I 
have no idea. But maybe there is some other magical figure that 
we pulled out of the air to create a headline.
    I am saying we need a solution. We don't need more 
rhetoric. We don't need more pie in the sky bullshit--excuse 
me. We need solutions to help the first responders.
    Chief, you know what I am talking about. It has been the 
subject of every conference you have been at, every conference 
I have been at, in every state. It is about time we respond.
    Thank you. Be happy to yield, even though I don't have any 
more time.
    Mr. Pascrell. I think the organization that the gentleman 
represents, Mr. Metzl, wouldn't you agree that they have a 
confusion, because they can't distinguish between basic needs, 
which existed before 9/11, and the needs which exist in terms 
of terroristic vulnerability?
    And if you don't understand the difference between the two, 
then you make mistakes like this gentleman and the governor. I 
am sorry he had to leave. I am sorry he had to leave.
    But the program he talked about doesn't even go through 
this team. It goes through the Transportation Security Act. But 
we can't talk to him. So. He has gone.
    Thank you.
    Chairman Cox. I will--
    Mrs. Lowey. Well, I think my good colleague, Curt Weldon, 
said it all. And I am not a firefighter. I am just a 
congresswoman. But I happen to have three children and six 
grandchildren. And as Commissioner Kiernan knows, I have been 
meeting with the first responders. I have been meeting with the 
hospitals. I have been meeting with the police. I have been 
meeting with superintendent of schools. I have been meeting 
with parents.
    And frankly, when, and I can't remember, when we had a 
witness here who is head of the office of emergency--about a 
month ago. And he said, Commissioner Kiernan, that he was going 
out with an RFP within the year. This is on the 
interoperability of communication systems. He was first going 
out with an RFP. And then he was going to let you all know what 
the results of his success were.
    But we figured if you go out with the RFP, by the time a 
year and a half to two years, God forbid there is another 
emergency, we will probably be able to let you know the state 
of the art of the equipment.
    Well, I know that through this regional organization you 
have figured out how to deal with interoperability of 
communication systems, which is just one of the emergency needs 
you need.
    And I was talking to my colleague Curt Weldon, who was 
giving us some advice. But you figured it out yourself.
    And this is what is so tragic to me, because you exemplify 
what is happening everywhere. The federal government formed 
this agency, the Agency of Homeland Security. And they are 
finding office space. And they are trying to hire people.
    Well, it is way past September 11. And you are all having 
to fend for yourselves, trying to figure out how you are going 
to get this equipment, because you are not the money. I did 
find some money to do some of the work. We won't discuss that. 
We did find some. And some of us are scrounging here and there.
    But you and I know that there is so much more that is 
needed.
    So I really want to thank you. You made your position 
absolutely clear. I am not going to take the time to ask you 
additional questions. But I am sure that you would welcome some 
guidance from the federal government, some expertise that must 
be there some place in the federal government, so that you can 
move forward with your purchasing equipment. And in fact, I 
know that you would welcome some additional money. It is moving 
very, very slowly.
    And I want to thank you again for keeping our community 
safe, for your expertise that you are sharing with the other 
communities in Westchester.
    And I want to thank Mr. Metzl, Mr. Jaramillo, and Mr. 
Grossman for your testimony.
    I would hope that we can just all wake up. As you said, we 
had a wake-up call 10 years ago. And I haven't seen, frankly, 
an efficient response to our communities.
    And in addition to the fire service, I can remember a 
police chief from Greenburgh said if, God forbid, anything 
happened and we have a nuclear plant in our district at Indian 
Point, he would have to go out with his raincoat to protect the 
community.
    So we have a lot of work to do.
    Thank you all for coming here. I do hope through this 
committee we can move the process to work more efficiently.
    Thanks.
    Ms. Jackson Lee. Would the gentlelady yield?
    Chairman Cox. The gentlelady has a minute remaining.
    Mrs. Lowey. I would be delighted to yield for the minute.
    Ms. Jackson Lee. That light was on green. Had a little bit 
more time.
    Let me thank the gentlelady. And I want to thank the 
panelists. It looks as if business on the floor is going to 
cause us to shorten the hearing more than I would like.
    I particularly want to send my greetings out to Sheriff 
Baca, whose wonderful hospitality, the pointed insight when 
this committee took their tour out to Long Beach, L.A. ports. 
And I thank you for your special hospitality on that.
    But again, waking this committee up.
    Let me just say, Mr. Chairman, I thank you for this 
hearing.
    We are talking, gentlemen, not because we are disrespectful 
of your testimony. But we are talking because many of us have a 
commitment to homeland security, having organized our own first 
responder, if you will, anti-terrorist advisory committee.
    Then, I would like to leave these two points on the table.
    Mr. Chairman, I hope that in the next 24 hours we can 
reestablish this committee as a fix-it committee, as a problem 
solver committee, as an implementing committee. Because you 
have heard from all of us, my dear friend Congressman 
Weldon?well, we said a lot about our frustration.
    And, Mr. Chairman, I would really think it would be 
important, one, to take up the issue that I have argued for, 
which is the expediting of funds directly to the first 
responders, and directly to the local entities, in their hands.
    The other thing I want to look at is we think that we have 
a day of Sundays for you to file applications and to have them 
reviewed, as if we are trying to build a local park. You are 
dealing with crisis issues. And an application process that 
allows you to fill out some paperwork, even if it is e-mail and 
even if it is sent by the Internet, I would argue that it is 
too much of a delay.
    And there must be a system to document to document your 
credibility and to get these funds in your hands.
    So Mr. Chairman, what I am arguing for, I have listened to 
the first responders collectively from all over the country. I 
respect what they are doing. But I think this committee has got 
to restructure itself to fix problems.
    We have heard over and over again about money going 
directly to these entities. I think we have got to rewrite the 
legislation, and do that first of all. The second thing is I 
think we have got to re-change this application process. My 
police in Houston right now, with a director of public safety, 
are still waiting for money.
    Why? They are sitting around talking about what plan are we 
going to have, and what application process are we going to put 
in place. And then let us get with the local county people and 
see how they are going to put it in place.
    And any moment, even though we are not operating at the 
highest alert right now, we could be subject to a terrorist 
attack.
    It is imperative that this committee take its rightful 
place in this House and start designing efforts to direct our 
dollars and have oversight out where the dangers are, and make 
sure that we can work toward a secure nation and secure 
neighborhoods.
    I said I was closing, and I am, Mr. Chairman, because you 
have been very kind. Gentlemen, I hope that you will go back 
and encourage your neighborhoods to become part of the Citizen 
Corps, that is something under homeland security, a program 
under Homeland Security, that will secure neighborhoods.
    Most of America does not know that it even exists. And I 
would like to encourage this committee not only to work with 
Citizen Corps, but to provide a revenue stream to help these 
neighborhoods become secure.
    And I encourage that; it is happening in Houston with the 
Millennium Effort in our community, and I hope it will happen 
around the nation.
    I yield back, Mr. Chairman, I thank you.
    Chairman Cox. I thank our panel. You have been 
extraordinary witnesses. Chief Kiernan, I appreciate your 
coming on short notice. To all of you, thank you.
    As you know, the war on terrorism requires coordination 
among the federal, state and local levels. It also requires 
international coordination with foreign governments.
    And we are now going to rush over to the House floor and 
join our Senate colleagues in hearing from the British prime 
minister, Tony Blair. He is going to talk to us about many of 
these same subjects.
    So you are here on an eventful day. This is very important 
work.
    Godspeed to all of you.
    This hearing is adjourned.
    [Whereupon, at 3:54 p.m., the subcommittee was adjourned.]

                 Questions and Reponses for the Record:

    Mr. George Jaramillo Responses to Questions from Rep. Langevin.

    1. I assume you have all been, and will continue to be, involved in 
training exercises and other efforts to gauge your preparedness levels 
and identify problem areas.

        Question: a. After you complete these exercises, is there any 
        process by which your experiences and findings are shared with 
        theDepartment of Homeland Security?
        Response a. In California after any training exercise or 
        activation of the local Emergency Operations Center, we are 
        required to complete an After-Action Report (AAR) and submit it 
        to the State Office of Emergency Seivices. These AAR's identify 
        future training needs based on what worked well and what did 
        not. A segment on ``lessons learned'' is included to assist in 
        revising current or developing future protocols, plans, and 
        equipment needs.

        Question: b. Have you received any information from DHS about 
        best practices and lessons learned in other communities that 
        might be helpful to you?

        Response b. To date, we have not received any in formation from 
        DHS about best practices and lessons learned in other 
        communities. I do want to emphasize that we have developed a 
        network among our mutual aid partners in all disciplines and at 
        all levels (national, state, regional, local) to share lessons 
        learned during a training exercise. We are unaware of any 
        formal distribution of information that has been developed by 
        DHS to share with local first responder agencies.

    Mr. George Jaramillo Responses to Questions from Rep. Etheridge.

    Question: 1. How many people in your departments are primarily 
responsible for anti- terrorism activities?
    Response: 1. The Orange County Sheriff's Department is the largest 
law enforcement agency in Orange County with over 4,000 members. We 
have 15 full-time members responsible for anti-terrorism activities 
along with approximately 40 members who have auxiliary duties relating 
to anti- terrorism. Additionally, we have marshaled hundreds of 
volunteers to assist in these efforts.

    Question: 2. Have you found that the increased emphasis on 
terrorism diverted people and resources from your daily crime-fighting 
activities?
    Response: 2. Absolutely there has been a strong impact on our daily 
crime-fighting activities with the diverted people and resources to 
anti-terrorism. Due to lack of funding, there have been only seven 
replacements for the 15 full-time members who have left their prior 
assignments, including general and special crime investigation duties, 
training academy assignments, investigation assistance, and field 
patrol work. Monies have also been diverted for equipment needs, 
computer software networking, and office support for the full-time 
anti-terrorism staff members.

    Question: 3. How has the current state budget crisis affected your 
ability to protect the citizens in Orange and Los Angeles Counties?
    Response 3. The current state budget crisis in California has 
impacted the release of anti-terrorism and homeland security funding 
from the State level to the local levels. The grant guidance set forth 
by California's Office of Homeland Security and Office of Emergency 
Services are set up to release the equipment, training, exercise, and 
planning funds on a reimbursement basis. This severely impacts the 
first responder agencies that have to purchase the equipment or develop 
the training and exercises within their existing budget in the hopes 
that reimbursement will follow. At this time, Orange County Sheriff's 
Department has been approved for the 2003 Homeland Security Grants Part 
I and Part II in excess of $9 million plus the 2002 Office of Domestic 
Preparedness Grants for over $1 million on behalf of the entire county. 
No monies have been received to date as agencies are scrambllng to re-
allocate monies to cover the initial costs prior to submitting 
reimbursement in voices to the State. The State has consistently 
imposed unrealistic timelines and expectations for expenditures without 
clear guidance or agreement on the release of grant funds to the 58 
designated Operational Areas in the State of California.

  Mr. George Jaramillo Responses to Questions from the Minority Staff.

    Question: 1. This question regarding the High Threat Urban Area 
grants and is directed to Captain Grossman from Los Angeles County 
Sheriffs Department.
    Response: 1. No response requested from Assistant Sheriff 
Jaramillo.

    Question: 2. Can you describe the timeline between when the 
Department of Homeland Security has announced funds for California, Los 
Angeles, and Orange County and when the funds have arrived?
    Response 2. The 2003 Homeland Security grant was issued in two 
parts. Part I (CA -$45 million) was announced by DHS on March 10, 2003. 
The State of California notified the 58 Operational Areas including Los 
Angeles and Orange County by letter on March 28, 2003. The letter 
advised that grant guidelines would be distributed on or before April 
11 On April 15 we received the grant guidelines with a due date for 
submission of May 15, 2003. We met the grant guidelines and were 
telephonically notified on June 5 that our grant application was 
approved for $284,369. No money has been received to date due to the 
reimbursement requirement of the grant. The State developed the 
required reimbursement forms and made them available late June.
    2003 Homeland Security grant Part II was announced by DHS in early 
May2003 (CA--$103,355 million). We received the grant guidelines from 
the CA Office of Homeland Security on May 14 with a due date of June 
15, 2003. We submitted our grant a, on June 13 and received a letter of 
grant approval dated August 8 for $6,727,564. To date, no monies have 
been received due to the reimbursement requirement of the grant 
funding. We are in the process of re-prioritizing our budget to 
purchase the equipment, provide the training, and develop the exercise 
with existing funds with the expectation that reimbursement funding 
will occur in a timely manner. Together, Part I and Part II grant 
funding for homeland security will cost Orange County an outlay of $9 
million with an unknown reimbursement date by the State of California 
for costs incurred in anti-terrorism and homeland security 
preparedness.

    Question: 3. Sheriff Jaramillo's statement says ``I cannot 
emphasize enough how the lengthy process is creating difficulties for 
those of us who are First Responders to purchase equipment, and to give 
optimal training and exercises into our personnel.'' He adds that 
``Orange County has been awarded nearly $12 million in grant funding, 
although as of today we have only received $875,000 of these funds.'' 
Governor Romney testified that the stares are passing though federal 
funds to the local level within Congress' 45-day requirement. If the 
delay isn't at the state level, should we assume that it is slow to 
come out of the Department of Homeland Security?
    Response 3. We have been unable to receive confirmation through the 
State of California whether the homeland security grant funds have been 
transferred to the state coffers from OHS. All indications are that OHS 
is not responsible for the slow distribution of funds. Because of the 
design of California's grant guidelines with the grant requiring 
reimbursement to Operations Areas after costs are incurred, no funding 
has yet been received for homeland security or anti- terrorism 
equipment, training, exercises, or planning.

    Question: 4. What federal resources do you have to address the 
personnel needs you have to adequately conduct anti-terrorism 
operations?
    Response 4. In California, all federal resources must be accessed 
through SEMS (Standardized Emergency Management System) after local 
resources are depleted. As the County Operations Area we are the link 
between our local jurisdictions and the State to obtain additional 
resources as needed. We also have in Orange County a Joint Terrorism 
Task Force (JTTF) that we co manage with the FBI.

    Question: 5. I assume you both run frequent exercises...to gauge 
your preparedness for terrorist attack. After you do the exercises and 
identify the lessons learned, do you share this information with DHS? 
Does DHS send you lessons learned from exercises in other regions?
    Response 5. In California after any training exercise or activation 
of the local Emergency Operations Center, we are required to complete 
an After-Action Report (AAR) and submit it to the State Office of 
Emergency Sevices. These AAR's identify future training needs based on 
what worked well and what did not. A segment on ``lessons learned'' is 
included to assist in revising current or developing future protocols, 
plans, and equipment needs. To date, we have not received any in 
formation from DHS about best practices and lessons learned in other 
communities. I do want to emphasize that we have developed a network 
among our mutual aid partners in all disciplines and at all levels 
(national, state, regional, local) to share lessons learned during a 
training exercise. We are unaware of any formal distribution of 
information that has been developed by DHS to share with local first 
responder agencies.

    Mr. Michael Grossman Responses to Questions from Rep. Langevin.

    1. I assume you have all been, and will continue to be, involved in 
training exercises and other efforts to gauge your preparedness levels 
and identify problem areas.
        Question: a. After you complete these exercises, is there any 
        process by which your experiences and findings are shared with 
        the Department of Homeland Security?
        Answer: a. We have not shared information (lessons learned) 
        with the Department of Homeland Security after the completion 
        of training exercises, and are not aware of any existing 
        process to do this.
        Question: b. Have you received any information from DHS about 
        best practices and lessons learned in other communities that 
        might be helpful to you?
        Answer: b. No, we have not received any information about best 
        practices from other regions in the nation.

    Question: 2. Are any of you receiving regular intelligence 
briefings or updates from DHS to assist you in preparing for the most 
likely threats?
    Answer: 2. Yes, we receive advisories from the State and Local 
Watch at the Homeland Security Operations Center. However, our primary 
source of intelligence from the Federal Government is the weekly FBI 
Intelligence Bulletin that we receive from our sworn personnel assigned 
to the Los Angeles Joint Terrorism Task Force (JTTF).
        Question: a. If so, I'm interested to know how often and in 
        what form you receive the information.
        Answer: a. The DHS Advisories are transmitted via email as 
        information is available.
        Question: b. If not, how is the lack of threat information 
        affecting the decisions you make every day about where to focus 
        personnel, what equipment to purchase and how to prioritize 
        training and other efforts?
        Answer: b. N/A
        Question: c. What kind of information would be most helpful to 
        you in making the most efficient and effective use of your 
        limited resources?
        Answer: c. It would be most helpful to receive information that 
        is already verified and accurate in order to prevent the 
        unnecessary deployment of personnel and equipment. As mentioned 
        in the written testimony, it is vital to have the ability to 
        have a secure compartmentalized information facility (SCIF) in 
        order to receive classified information in a timely manner, 
        particularly if it pertains to an impending threat to our 
        region.

    Mr. Michael Grossman Responses to Questions from Rep. Etheridge.

    Question: How has the current state budget crisis affected your 
ability to protect the citizens in Orange and Los Angeles Counties?
    Answer: The Los Angeles County Sheriff's Department currently has 
29 sworn and civilian employees assigned full-time for anti-terrorism 
activities which includes intake, analysis and investigations. There 
are also three part-time management positions that dedicate a good 
portion of their time to anti-terrorism efforts. This is not nearly 
enough for an area of our size and vulnerability. Hence the reference 
in the written testimony to provide funding for additional personnel 
and positions in future grants.

    Question: Have you found that the increased emphasis on terrorism 
diverted people and resources from your daily crime-fighting 
activities?
    Answer: Yes, the increased emphasis on terrorism has diverted 
personnel from other necessary law enforcement activities. Of the 29 
assigned to the full-time effort, eight are on loan to the Emergency 
Operations Bureau/Terrorism Early Warning Group from detective, patrol 
and other units throughout the sheriff's department.

    Question: How many people in your departments are primarily 
responsible for anti-terrorism activities?
    Answer: The current budget situation in the State of California has 
a direct effect on our ability to protect the citizens of Los Angeles 
County. The sheriff's department is experiencing a nearly $100 million 
reduction in our operating budget for this fiscal year, with additional 
cuts pending. This renders us unable to redistribute any additional 
personnel from essential law enforcement functions to the anti and 
counter-terrorism effort. It also makes it impossible to even loan 
additional personnel without replacement.

  Mr. Michael Grossman Responses to Questions from the Minority Staff.

    Question: 1. Captain Grossman, do I understand your testimony--that 
the City of Los Angeles has received tens of millions of dollars in the 
High Threat Urban Area grants, but that your department and the region 
outside the city gets none of that? Isn't the ``Urban Area'' much 
larger than the city itself? Do you know why the Department of Homeland 
Security specified the grant that way?
    Answer: 1. I do not know why the Department of Homeland Security 
specified the grant in this manner. The County of Los Angeles 
``Operational Area'' is made up of 88 cities, including L.A. and Long 
Beach. The previous Office of Domestic Preparedness (ODP) equipment 
grants were allocated through the state to the county to be distributed 
as needed to the first-responder agencies in the region. The Urban Area 
Security Initiative (UASI) process differs in that it allocated funds 
directly to the designated cities with the guidance that the funds 
were, . . .``to be expended in cooperation with the contiguous cities 
and county.'' We believe that this method does not address the overall 
regional preparedness because it is not consistent with existing 
procedures for our Operational Area (county).
    In the first phase of the UASI grants, the City of Los Angeles was 
allocated $12.5M. The County of Los Angeles is waiting to receive its 
share that will total approximately $lM (for fire and sheriff). In the 
second phase, L.A. City is anticipating an award of $18.87M, and the 
City of Long Beach (both cities are in the Los Angeles County 
Operational Area) $6.46M. The allocation process is still in progress 
for the distribution of these funds. Unlike the first phase, this 
requires extensive needs assessments, which are underway, to establish 
the strategy which will determine the apportionment. To this date, we 
have not received any of the funds from the UASI grants. The only funds 
the sheriff's department has received from all of the grants totals 
$297K from the 2001 ODP Equipment Grant Program.

    Question: 2. Can you describe the timeline between when the 
Department of Homeland Security has announced funds for California, Los 
Angeles, and Orange County and when the funds have arrived?
    Answer: 2. I can not address the funding for Orange County, 
however, the attached Grant Summary Sheet describes the timeline and 
status of all of the federal grants for Los Angeles County. This does 
not include the Urban Area Security Initiative (UASI) grants that are 
being administered by the cities of Los Angeles and Long Beach. The 
process requires that the state pass the funds to the local entities 
within 45 days. The difficulty is that we are processing the multiple 
grants with vary requirements, all at the same time. Of the seven 
grants, we have received only $297K (to the sheriff's department), 
which is from the 2001 grant. We are in various stages of processing on 
all of the other grants and have not yet received any additional funds.

    Question: 3. Please help me understand what is somewhat conflicting 
testimony. Sheriff Jaramillo's statement says ``I cannot emphasize 
enough how the lengthy process is creating difficulties for those of us 
who are First Responders to purchase equipment, and to give optimal 
training and exercises to our personnel.'' He adds that ``Orange County 
has been awarded nearly $12 million in grant funding, although as of 
today we have only received $875,000 of these funds.'' Governor Romney 
testified that the states are passing through federal funds to the 
local level within Congress' 45 day requirement. I have heard from my 
constituents that the funds aren't flowing. So if the delay isn't at 
the state level, should we assume that it is slow to come out of the 
Department of Homeland Security?
    Answer: 3. The 2001 grant is the only one that is a direct 
appropriation of funds. All of the subsequent grant programs require 
reimbursement for the distribution of funds. This means that once the 
grant is approved, the recipient agency must purchase the items 
consistent with their jurisdictions procurement rules, and once the 
products are finally received they can then submit for reimbursement 
under the grant. This appears to be the primary cause for the long 
delays in actually receiving granted funds.

    Question: 4. What federal resources do you have to address the 
personnel needs you have to adequately conduct anti-terrorism 
operations?
    Answer: 4. We have not received any federal resources to address 
personnel needs. As previously stated in the response to Rep. 
Etheridge, we strongly encourage that funding for additional personnel 
be included in the 2004 and subsequent grants on a non cost-sharing 
basis.

    Question: 5. I assume you both run frequent exercises, both real 
and tabletop, to gauge your preparedness for terrorist attack. After 
you do the exercises and identify the lessons learned, do you share 
this information with the Department of Homeland Security? Does the 
Department send you lessons learned from exercises in other regions?
    Answer: 5. We have not shared information (lessons learned) with 
the Department of Homeland Security after the completion of training 
exercises, and are not aware of any existing process to do this. We 
have not received any information about best practices from other 
regions in the nation.

   Questions and Responses for the Record from Mr. Raymond F. Kiernan

    Question: I--Do you think the Fire Act should be maintained 
separately from other First Responder Grants?
    Answer: Yes. The American Fire Service is in sad shape in many 
communities. Please see the enclosed executive summary of the results 
of a survey commissioned by Congress on the American Fire Service
    The F.I.R.E. Act is the first federal money to go to anyone in the 
Fire Service in the history of the Country.
    We can no longer expect chicken dinners, fish fries and bake sales 
to keep the balance of our Departments in business to protect its 
citizens. One has to sell a lot of brownies to purchase a $250,000 fire 
truck.
    The F.I.R.E. Act has been one of the most successful programs ever 
because money goes directly to the Department and not filtered through 
the States for their cut and control.
    In your State of North Carolina so far, $4,303,692.00 has been 
awarded to 71 Fire Departments of all sizes for necessary equipment. 
Much of this could never have been bought by them. (Enclosed North 
Carolina FIRE Act recipients.)

    Question: 2--Do you think the Fire Grant Program should emphasize 
anti-terrorism equipment and training or should it consider all 
requests equally?
    Answer: No. Each year millions upon millions of dollars work of 
valid requests go unfilled with the FIRE Act. The amount of money 
allotted in no way meets the demand for assistance. The FIRE Act could 
be $5 billon annually and still wouldn't meet requests.
    As you can see from the Congressional Report, local Fire 
Departments are lacking the basics. To further dilute this by putting 
WMD items into the mix would seriously affect the small and rural Fire 
Departments, as their risk level might be considered low.
    My suggestion is to leave the F.I.R.E. Act alone. Fund it more 
generously next session, as it is a great success.
    Develop a method of getting Homeland Defense monies to First 
Responders, which has been a total failure.
    We are here, just down the road from your house. Give us the tools 
to do the job.

                        Material for the Record

  PREPARED STATEMENT OF THE HONORABLE DICK MURPHY, MAYOR, SAN DIEGO, 
                               CALIFORNIA

    Chairman Cox and Honorable Members of the committee, on behalf of 
the citizens of San Diego, I appreciate this opportunity to address the 
committee and articulate some of the challenges facing San Diego in its 
efforts to prepare for and respond to terrorist threats.

    San Diego Background
    San Diego is the nation's 7th largest city with a diverse 
population of 1,275,100. Despite the comfortable small town atmosphere 
of the city and its residents, San Diego is a large city and the 
protection of its residents and critical infrastructure is of utmost 
importance.
    San Diego is a city with potentially high-profile vulnerabilities. 
Some of those distinctive attributes include: multiple military 
installations; the San Ysidro International Port of Entry--the busiest 
border crossing in the nation; regional water and wastewater 
facilities; a full service maritime port including a substantial 
military presence; an international airport; large professional sports 
facilities, major tourist attractions such as Sea World and the San 
Diego Zoo, as well as other symbolic sites such as the Coronado Bridge.
    Of particular note is the City's responsibility for critical 
infrastructure of national significance. San Diego is not only the home 
to multiple military installations, but is the sole provider of water 
and wastewater services to all military installations within the City 
as well as the provider for naval bases home to three of the nation's 
aircraft carriers and several nuclear submarines.

    Homeland Security Grant Programs:
    A significant concern for San Diego is the distribution method of 
State Homeland Security Grants (SHSG). The base plus population 
distribution to States is not effectively delivering federal funds to 
large urban cities such as San Diego. Instead, States are determining 
how to ``pass through'' the federal funds to the local jurisdictions on 
a state by state basis with no consistency across the nation. Under 
California's rules for SHSG distributions, the Counties control the use 
of federal funding support, including what amount they retain or pass 
on to cities.
    For example, San Diego is one of 18 cities within San Diego County, 
but represents approximately 43 percent of the region's population. San 
Diego has the largest most sophisticated police and fire departments in 
the region, and is the primary first responder and mutual aid provider 
to a majority of the people in the urban area of San Diego County. 
These City departments are most likely to be the first to respond to 
any large scale emergency, should one occur. However, of the current 
funding allocated to the region by the State, only 24 percent of the 
region's share was dedicated to San Diego.
    Additionally, the City of San Diego has entered into a Joint Powers 
Agreement with the other 17 cities in the county as well as the County 
government, to provide hazardous materials response for the entire 
region. Despite being the lead agency responsible for responding to 
hazardous materials incidents anywhere in the county, the SHSG program 
does not require funds be allocated to such an agency for this purpose.
    A potential solution for the inequitable distribution plans being 
adopted across the nation is to support direct federal funding to the 
largest U.S. cities based on population served, threat/need criteria, 
and recommend that future State funding account for high-threat 
metropolitan areas.
    The largest U.S. cities have sufficient scale and sophistication to 
justify direct federal funding. For example, the population of the City 
of San Diego is larger than Rhode Island and New Hampshire yet the 
method for distribution does not recognize this size and 
sophistication. Instead the system creates three layers of 
administrative bureaucracy, which reduces funds ultimately available to 
service providers and delaying expenditure.

    Planning/Overtime Expenses:
    Another challenge facing cities is the inability to use federal 
funds for personnel costs such as planning and overtime reimbursement. 
While some funds have been identified in SHSGP II (2003 Supplemental 
Appropriations bill), not nearly enough have been identified for 
planning purposes. In order for public safety agencies to be adequately 
prepared for a terrorist emergency, funding for the development of 
response plans, training personnel and exercising the plans is 
necessary. Once emergency plans have been developed and exercised, 
public safety entities will have an even greater knowledge of the 
equipment needed to respond to terrorist incidents.
    San Diego is an area with many potential terrorist targets and 
therefore incurs exceptionally large added personnel costs for 
heightened security, especially when the Department of Homeland 
Security raises the national threat level to High (Code Orange) or 
Severe (Code Red). These additional expenses are difficult for cities 
to absorb, especially given the current budget conditions of cities and 
the very real threat of additional revenue reductions by the State. 
California is facing an estimated $38 billion state budget deficit, and 
cities and counties are expecting to see a severe reduction in revenues 
in the near future.
    Future SHSG funding should allow the funding to be allocated to 
personnel expenses and overtime costs for personnel assigned to 
homeland security functions (planning, training and exercising) and 
incremental ``backfill'' expenses of overtime and benefits for others 
to replace those personnel in regular duties.

    Conclusion:
    In conclusion, I would respectfully request the committee include 
the issues I identified above in their recommendations on how to 
improve the partnership between Federal, State and Localities by 
improving the current distribution system of federal funding. Those 
issues are:
    1. Recognize the unique characteristics in certain large cities and 
the necessity to identify funding accordingly;
    2. Revise the distribution of State Homeland Security Grants to 
include direct funding for the largest U.S. cities; and
    3. Allow planning and overtime expenses to be considered eligible 
for SHSG funds.
    Again thank you Chairman Cox and members of the committee for the 
opportunity to share San Diego's perspective on some of the Homeland 
Security challenges facing the City.

                    Letters Submitted for the Record

The President,
The White House

Mr. President,
    My name is Thomas Kennedy and I am a retired New York City 
Fire Department Deputy Chief and a member of the Northeastern 
States Fire Consortium.
    The Northeastern States Fire Consortium (NSFC) is made up 
of State Fire Officials and Fire Organizations from 
Connecticut, Maine, Maryland, Massachusetts, New Hampshire, New 
Jersey, New York, Pennsylvania, Rhode Island and Vermont.
    The NSFC strongly supports the House of Representatives 
proposal that retains the management of the FIRE Act in the Us 
Fire Administration (USFA),
    The USFA is the reason the FIRE Act is such a successful 
program. The USFA knows and understands the needs of the Fire 
Service. Under the USFA the funding goes directly to where it 
is needed, the local Fire Departments. Why alter a successful 
program?
    Again, the NSFC strongly urges that the USFA retains 
management of the FIRE Act.
Sincerely,
Thomas M. Kennedy, Committee Member
Additional Note: FIRE Act information can be accessed at http:/
/www.firehouse.com/funding/fireact/2003/recipients/nc.html

                      U.S. House of Representatives
                      Select Committee on Homeland Security
                                              Washington D.C. 20515
Hon. Christopher Cox
Chairman, House Select Committee on Homeland Security, The 
Capitol, Washington, D.C.
    Mr. Chairman: I was somewhat puzzled when Governor Romney 
during his committee testimony volunteered with no particular 
context that the city of Fall River had failed to apply for 
homeland security funds. I had asked him no question to which 
that would have been the answer, and he seemed to me to be 
trying to make some political point. The reason for his seeking 
to do and the point itself were unclear to me then and remain 
so.
    My puzzlement deepened when I learned from Edward Lambert, 
the Mayor of Fall River, that the city had in fact applied for 
funds, directly contrary to the Governor's testimony, in fact, 
Fall River's experience appears to contradict the Governor's 
testimony. In several ways. In his testimony Governor Romney 
defended the view that Federal Homeland Security funds should 
go through the states, stressing that local governments should 
form regional groupings to make their amplifications, so as to 
provide greater efficiency. The irony is that Fall River did 
exactly that, at the urging of the Romney administration.
    As the following letter from Mayor Lambert says, Fall River 
was told by the Romney administration not to apply on its own, 
but rather as part of a regional collaborative. It was that 
regional collaborative application that was rejected. It is 
thus ironic that Governor Romney inaccurately accused the city 
of Fall River of failing to apply. I have worked closely with 
Mayor Lambert over the past years along with my colleague Mr. 
McGovern who shares with me the representation of Fall River. 
The mayor is very aggressive-- which is entirely appropriate--
in seeking both federal and state help for the city of which he 
is Mayor, and I have found Mayor Lambert and his administration 
willing and able partners in putting together proposals for 
funding to meet the needs of Fall River and its citizens. As 
mayor Lambert's letter says, the Governor's incorrect assertion 
that the city failed to apply for funds ``only adds insult to 
injury'' and while I am unable to correct the injury that Fall 
River suffered when the collaborative of which it was a part 
was denied funds, I do want to take this opportunity to rebut 
the insult.

BARNEY FRANK

                               Attachment

    Dear Congressman Frank: I was outraged when it was 
communicated to my office that Gov. Mitt Rorrmey, in testimony 
before the Congressional Select Committee on Homeland Security, 
said that the City of Fall River did not apply for funding in 
the recent round of federal grants for Homeland Security.
    The fact is that Fall River did apply, as part of a 
regional colloborative as we were encouraged to do by the 
state, only to be rejected in spite of the tremendous need we 
have for such security funding.
    Jane Tewksbury, Chief of Staff for Public Safety Secretary 
Ed Flynn, has admitted to me, as recently as today, that 
cities, during the application process, were discouraged from 
hung applications on their own, being directed instead to file 
applications with other communities identi a regional response 
to homeland security issues. Fall River played by that set of 
rules as we were told to by the state, then found ourselves 
without funding as other cities were rewarded with their own 
grants. In fact, the awarding process seems to have left a lot 
to be desired, as many cities and regions were funded that do 
not have any of the port security, interstate transportation, 
or water resource issues that we have in Fall River.
    Our city's inability to access these homeland security 
funds given the tremendous needs that we have and the strength 
of the collaborative application we filed, is a glaring 
omission. The Governor's incorrect assertions, that we didn't 
even seek funding before your committee, only adds insult to 
injury.

Sincerely,

Edward M. Lambert, Jr., Mayor

                                 <all>

</pre></body></html>
